Case 4:20-mj-01069-DLC Document 54 Filed 09/04/20 Page 1 of 11

UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
IN THE MATTER OF THE EXTRADITION
OF MICHAEL L. TAYLOR

No. 20-mj-1069-DLC

IN THE MATTER OF THE EXTRADITION
OF PETER M. TAYLOR

No. 20-mj-1070-DLC

EXTRADITION CERTIFICATION AND ORDER OF COMMITMENT
CABELL, U.S.M.J.
I.

INTRODUCTION
The United States seeks to extradite Michael L. Taylor and

Peter M. Taylor (the “respondents”) to Japan to face a charge of
harboring or enabling the escape of a criminal, in violation of
Article

103

of

the

Japanese

Penal

Code.

The

extradition

proceedings were commenced by the United States pursuant to 18
U.S.C. § 3184 and the Extradition Treaty between the United States
and Japan, signed on March 3, 1978, and entered into force on March
26, 1980 (“Treaty”).
On

May

provisional

6,

2020,

arrests

of

this

court

the

issued

respondents

a

complaint

with

a

view

for

the

towards

extradition at the request of the United States, acting on behalf
of the Government of Japan.

(D. 1).1

The complaint indicates that

Citation to the extradition dockets refer to the docket entries in In the
Matter of the Extradition of Michael L. Taylor, Case No. 20-MJ-1069 (D.
Mass).
1

ATTACHMENT A

Case 4:20-mj-01069-DLC Document 54 Filed 09/04/20 Page 2 of 11

the Government of Japan issued warrants for the respondents’
arrests for their involvement in the escape of Carlos Ghosn from
Japanese authorities.

Ghosn, who was under indictment in Japan

for financial crimes, fled to Lebanon, a country with whom Japan
has

no

extradition

treaty,

effectively

shielding

him

from

prosecution.
On

May

20,

2010,

the

respondents

were

arrested

in

Massachusetts and, after a detention hearing, were ordered to be
held without bail pending the outcome of their extradition hearing.
(D. 41). The respondents sought an emergency writ of habeas corpus
and injunctive relief, which was denied.

See Taylor v. McDermott,

No. 20-cv-11272 (D. Mass. 2020).
II.

FINDINGS
On August 28, 2020, this court held an extradition hearing

for both respondents pursuant to 18 U.S.C. § 3184.

International

extradition proceedings are governed by 18 U.S.C. § 3181 et seq.
and by treaty.

In applying an extradition treaty, the court is to

construe it liberally in favor of the requesting nation.

See

Factor

The

v.

Laubenheimer,

290

U.S.

276,

293–94

(1933).

extradition court’s role is not to determine guilt or innocence,
but rather whether the following elements have been satisfied in
order to support extradition of the accused: (1) the judicial
officer is authorized to conduct the extradition proceeding; (2)
the court has jurisdiction over the fugitive; (3) the applicable
2

ATTACHMENT A

Case 4:20-mj-01069-DLC Document 54 Filed 09/04/20 Page 3 of 11

treaty is in full force and effect; (4) the crime(s) for which
surrender is requested is/are covered by the applicable treaty;
and (5) there is sufficient evidence to support a finding of
probable cause as to each charge for which extradition is sought.
See Fernandez v. Phillips, 268 U.S. 311, 312 (1925).
In considering the evidence presented by the Government of
Japan as contained in the extradition documents submitted in
support of the extradition request, the evidence offered by the
respondents, the Extradition Treaty between the United States and
Japan, and the applicable law, the court finds that the terms of
the Treaty and 18 U.S.C. § 3184 have been satisfied with respect
to the Taylors’ extradition to Japan. More specifically, the court
finds as follows.
1) Authority of the Court Over the Proceedings
The parties agree, and this court finds that it has subjectmatter jurisdiction over these proceedings.

18 U.S.C. § 3184.

Section 3184 provides that:
Whenever there is a treaty or convention for extradition
between the United States and any foreign government, or
in cases arising under section 3181(b), any justice or
judge of the United States, or any magistrate judge
authorized so to do by a court of the United States ...
may, upon complaint made under oath, charging any person
found within his jurisdiction, with having committed
within the jurisdiction of any such foreign government
any of the crimes provided for by such treaty or
convention, or provided for under section 3181(b), issue
his warrant for the apprehension of the person so
charged, that he may be brought before such justice,
judge, or magistrate judge, to the end that the evidence
3

ATTACHMENT A

Case 4:20-mj-01069-DLC Document 54 Filed 09/04/20 Page 4 of 11

of criminality may be heard and considered.... If, on
such hearing, he deems the evidence sufficient to
sustain the charge under the provisions of the proper
treaty or convention, or under section 3181(b), he shall
certify the same, together with a copy of all the
testimony taken before him, to the Secretary of State,
that a warrant may issue upon the requisition of the
proper authorities of such foreign government, for the
surrender of such person, according to the stipulations
of the treaty or convention .... Id.
Id.

Further, magistrate judges in the District of Massachusetts

are

authorized

by

local

rule

to

“[c]onduct

extradition

proceedings, in accordance with Title 18, United States Code,
Section 3184.”

D. Mass. Local Magistrate Rule 1(e).

2) Jurisdiction Over the Respondents
The

parties

agree,

and

the

jurisdiction over the respondents.

court

finds

that

it

has

Section 3184 gives the court

jurisdiction over a fugitive found within the court’s jurisdiction
who has committed crimes in a foreign nation that are covered by
an extradition treaty set forth in section 3181.

The extradition

treaty between the United States and Japan is included in section
3181.

The court finds support in the record that the respondents

are the persons who appeared before the court and are the ones
against whom the instant charges are pending.

The respondents

also agree that they are the ones against whom the present charges
are pending.
3) Treaty in Full Force and Effect
The parties agree, and the court finds that there is an
4

ATTACHMENT A

Case 4:20-mj-01069-DLC Document 54 Filed 09/04/20 Page 5 of 11

extradition treaty (Treaty) in full force and effect between the
United States and Japan, for all purposes of the extradition
proceeding.

18 U.S.C. §§ 3181 and 3184.

4) Crime Covered by the Treaty
The parties agree, and the court finds that the charges for
which extradition is sought are crimes pursuant to both Japanese
and United States law and covered by the Treaty.
Article I of the Treaty provides for the return to Japan of
persons found in the United States who are sought by Japan for
prosecution,

trial

or

to

execute

punishment

specified in Article II of the Treaty.

for

any

offense

Article II of the Treaty

provides for extradition for offenses listed in an annexed schedule
which includes an offense relating to obstruction of justice,
including harboring criminals.

The respondents have been charged

for their involvement in harboring or enabling the escape of
someone charged with a crime, in violation of Article 103 of the
Japanese Penal Code.
criminal

prosecution

This offense would also be subject to
under

various

United

States

statutes,

including among others 18 U.S.C. § 1073 and 18 U.S.C. §§ 3148(a)
and 401.
5) Probable Cause that the Respondents Committed the
Offenses
Thus, the only issue left for the court is to determine
whether there is probable cause to believe that the respondents
committed the offenses charged.

The evidence from which that

5

ATTACHMENT A

Case 4:20-mj-01069-DLC Document 54 Filed 09/04/20 Page 6 of 11

determination is to be made is the evidence contained in Japan’s
extradition request.

To certify an extradition warrant, the

magistrate judge must find that there is “probable cause” or
“reasonable grounds” to believe the individual is guilty of the
crime charged.

See Fernandez v. Phillips, 268 U.S. 311, 312

(1925); see also Shapiro v. Ferrandina, 478 F.2d 894, 904–05, 913–
14 (2d Cir. 1973).

A magistrate judge applies the same standard

of probable cause in international extradition hearings as used in
preliminary hearings, in federal criminal proceedings.

See Castro

Bobadilla v. Reno, 826 F.Supp. 1428, 1433 (S.D. Fla. 1993).

The

evidence is sufficient and probable cause is established if a
person

of

ordinary

prudence

and

caution

can

conscientiously

entertain a reasonable belief in the probable guilt of the accused.
Gerstein v. Pugh, 420 U.S. 103, 111 (1975).
Factually speaking, the parties agree, and the court finds
support in the record, that the respondents committed the conduct
underlying the charges against them. Specifically, the court finds
that there is probable cause to believe that Peter Taylor traveled
to Japan at least three times and visited Ghosn on at least seven
occasions in the months preceding the escape.

Then, on December

28, 2019, Peter Taylor arrived in Tokyo and checked into a room at
the Grand Hyatt.

Ghosn then arrived at the Grand Hyatt and met

with Peter Taylor for about an hour.

On December 29, 2019, Michael

Taylor and a third individual, George-Antoine Zayek, traveled on
6

ATTACHMENT A

Case 4:20-mj-01069-DLC Document 54 Filed 09/04/20 Page 7 of 11

a private jet from Dubai, United Arab Emirates, to Japan’s Kansai
International Airport.

At

Kansai,

Michael

Taylor

and

Zayek

carried large black audio equipment-style cases and told airport
workers that they were musicians.

From Kansai, Michael Taylor and

Zayek checked into the Star Gate Hotel Kansai.

After placing the

cases in one of their rooms, they caught a train bound for Tokyo
at about noon.

At 2:30 p.m., also on December 29th, Ghosn left

his home without luggage and walked to the Grand Hyatt, where he
apparently changed into clothing from luggage that had been dropped
off and received by Peter Taylor earlier in the day.

Michael

Taylor and Zayek arrived in Tokyo at about 3:30 p.m. and went to
Peter Taylor’s room at the Grant Hyatt.
Shortly thereafter, the Taylors, Ghosn, and Zayek left Peter
Taylor’s room at the same time, each carrying luggage.

Peter

Taylor then traveled to the Narita Airport to catch a flight to
China.

However, Ghosn, Michael Taylor, and Zayek caught a train

back to the Kansai Airport area and returned to the Star Gate Hotel
Kansai at approximately 8:15 p.m.

At about 10:00 p.m., Michael

Taylor and Zayek left the hotel with luggage, including the two
audio-style cases, and went to Kansai Airport.
footage did not show Ghosn leaving the hotel.

Surveillance

Once at the airport,

the baggage of Michael Taylor and Zayek was loaded onto their
private jet without being checked.
about 11:00 p.m.

The jet departed for Turkey at

On December 31, 2019, Ghosn announced that he
7

ATTACHMENT A

Case 4:20-mj-01069-DLC Document 54 Filed 09/04/20 Page 8 of 11

was in Lebanon.
Although the respondents do not dispute the foregoing facts,
they argue that those facts do not make out a violation of Article
103.

This court finds that they do, however.
Among other things, Article 103 makes it a crime to “harbor[]

or enable[] the escape of another person who has...committed a
crime.”

As this court stated previously in considering the issue

in

context

the

of

the

respondents’

motion

for

bail,

the

respondents’ conduct literally brings them squarely within the
purview of this portion of Article 103 because they harbored or
enabled the escape of Carlos Ghosn, who had allegedly committed a
crime.

A separate court reached the same result after considering

the issue in the context of the respondents’ unsuccessful motion
for injunctive relief.

See Taylor v. McDermott, No. 20-cv-11272

(D. Mass. 2020) at D. 44 (“Petitioners have not shown a high
likelihood of success in their argument [that] Article 103 does
not prohibit interfering with the Japanese criminal justice system
by harboring Ghosn and enabling Ghosn to elude discovery by law
enforcement and escape judgment from a Japanese court.”).
To be sure, the respondents do not really take issue with the
court’s interpretation of Article 103 as it is written.

Rather,

they

103

argue

that

the

English

translation

of

Article

is

misleading because it does not accurately convey the true required
elements of the offense.

They argue that a proper reading of the
8

ATTACHMENT A

Case 4:20-mj-01069-DLC Document 54 Filed 09/04/20 Page 9 of 11

actual Japanese text of Article 103 requires one to do more than
merely harbor or enable the escape of someone who has committed a
crime to violate the provision; it requires one to harbor or enable
the escape of someone who either was in physical confinement or
was actively being pursued by law enforcement for a recently
committed crime.

They contend that they did not violate Article

103 under this interpretation because, although Ghosn was on
release for charges for which he had been indicted, he was neither
in

physical

confinement

nor

actively

being

pursued

by

law

enforcement for a crime at the time the respondents helped him
flee Japan.
Despite

strong

urging,

however,

consider the respondents’ argument.

the

court

declines

to

Even assuming an extradition

court has both the authority to resolve disputed issues of foreign
law, and the hopeful belief it could do so competently, that does
not mean it should.

“[E]xtradition proceedings are not vehicles

for United States federal courts to interpret and opine on foreign
law,” and American extradition courts therefore have consistently
cautioned against doing so, particularly to invalidate arrest
warrants.

See e.g., Noeller v. Wojdylo, 922 F.3d 797, 805 (7th

Cir. 2019); Marzook v. Christopher, No. 96 CIV. 4107 (KMW), 1996
WL 583378, at *5, n.4 (S.D.N.Y. Oct. 10, 1996) (citing Peters v.
Egnor, 888 F.2d 713, 716 (10th Cir. 1989) (“we think that an
extensive investigation of [the requesting country's] law would be
9

ATTACHMENT A

Case 4:20-mj-01069-DLC Document 54 Filed 09/04/20 Page 10 of 11

inappropriate”); Matter of Assarsson, 635 F.2d 1237, 1244 (7th
Cir.1980), cert. denied, 451 U.S. 938 (1981) (“We are also not
expected to become experts in laws of foreign nations.”).
Moreover, where a Japanese court has now twice issued warrants
alleging that the respondents’ conduct violated Article 103, and
the Government of Japan has through declarations and case citations
presented a reasonable interpretation of Article 103 under which
the respondents’ conduct would constitute a violation of that
provision, the prevailing view is that the extradition court should
defer to the foreign country’s interpretation of its own laws.
See In Matter of Extradition of Pineda Lara, No. 97 CR. MISC. 1
(THK), 1998 WL 67656, at *7 (S.D.N.Y. Feb. 18, 1998) (“a judge in
the United States should therefore defer to a foreign judicial
officer's or government official's reasonable interpretation of a
statute

where

the

statute

is

subject

to

more

than

one

interpretation”); see also Matter of Extradition of Lui, 939
F.Supp.

934,

949

(D.

Mass.

1996)

(comity

and

common

sense

“suggest[] that the foreign judicial officer should be presumed to
be more knowledgeable than the judicial officer in the United
States about the foreign law.”).
chooses to follow here.

That is the course the court

Accordingly, the court finds that there

is probable cause to believe that the respondents violated Article
103 of the Japanese Penal code.

10

ATTACHMENT A

Case 4:20-mj-01069-DLC Document 54 Filed 09/04/20 Page 11 of 11

III.

CONCLUSION
Based on the foregoing, this matter is certified to the

Secretary of State in order that warrants may issue, upon the
requisition of the proper authorities in Japan, for the surrender
of Michael L. Taylor and Peter M. Taylor on the charge of harboring
or enabling the escape of a criminal, in violation of Article 103
of the Japanese Penal Code, according to the provisions of the
Treaty between the United States and Japan.
No later than seven days after the date of this decision, the
government shall file a proposed extradition certification and
order of commitment.
The court will then order that the Clerk of Court forward a
certified copy of this Extradition Certification and Order of
Commitment, together with a copy of all the evidence taken before
this Court, to the Secretary of State, Department of State, to the
attention of the Office of the Legal Adviser.
The Taylors shall remain in the custody of the U.S. Marshal
for this District, to be held pending final disposition of this
matter by the Secretary of State, and pending each respondent’s
potential surrender to the government of Japan.
SO ORDERED.
/s/ Donald L. Cabell
DONALD L. CABELL, U.S.M.J.
DATED:

September 4, 2020
11

ATTACHMENT A

Case 4:20-mj-01070-DLC Document 53 Filed 09/14/20 Page 1 of 2

UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS

IN THE MATTER OF THE EXTRADITION
OF MICHAEL L. TAYLOR

No. 20-mj-1069-DLC

IN THE MATTER OF THE EXTRADITION
OF PETER M. TAYLOR

No. 20-mj-1070-DLC

CERTIFICATION OF PETER M. TAYLOR AND COMMITTAL FOR EXTRADITION
WHEREAS, on August 28, 2020, this Court held an extradition
hearing in the above-captioned extradition proceedings; and
WHEREAS, on September 4, 2020, this Court issued an
Extradition Certification and Order, after considering the
evidence, including the certified and authenticated documents
submitted by the Government of Japan, and the pleadings and the
arguments of the parties.
NOW THEREFORE, the Court formally certifies to the Secretary
of State for the United States as follows:
1) This Court has jurisdiction over, and the undersigned is
authorized to conduct, extradition proceedings pursuant to 18
U.S.C. § 3184 and Rule 1(e) of the Rules for United States
Magistrate Judges in the United States District Court for the
District of Massachusetts;
2) This Court has personal jurisdiction over Peter M. Taylor
pursuant to 18 U.S.C. § 3184. On May 6, 2020, this Court signed
a complaint filed by the United States in response to the request
of the Government of Japan for Peter M. Taylor’s provisional arrest
with a view towards his extradition and issued a warrant for his
arrest based on the complaint. On May 20, 2020, Peter M. Taylor
was found and arrested in this District pursuant to the warrant
and complaint. On June 29, 2020, Japan submitted to the United
States Department of State its formal request for Peter M. Taylor’s
extradition;
3) The extradition treaty between the United States and the
Government of Japan, Treaty on Extradition Between the United
States of America and Japan, U.S.-Japan, Mar. 26, 1980, 31

ATTACHMENT B

Case 4:20-mj-01070-DLC Document 53 Filed 09/14/20 Page 2 of 2

U.S.T. 892 (“Treaty”), has been in full force and effect at all
times relevant to the extradition proceedings;
4) The Peter M. Taylor whose extradition is sought by the
Government of Japan, and the Peter M. Taylor who was arrested in
this District and who appeared before the Court in the instant
extradition proceedings are one and the same person;
5) Japan seeks Peter M. Taylor’s extradition for the following
offense: Enabling the escape of criminals under Article 103 of the
Japanese Penal Code.
That offense is included in the Japanese
arrest warrant for Peter M. Taylor that Japan submitted in support
of its extradition request;
6) The above-referenced Treaty between the United States and
Japan encompasses the offense for which the Government of Japan
seeks Peter M. Taylor’s extradition; and
7) There is probable cause to believe that Peter M. Taylor
committed the offense for which extradition is sought.
ACCORDINGLY, I certify the extradition of Peter M. Taylor to
Japan on the offense for which extradition was requested and commit
him to the custody of the United States Marshals Service pending
further decision on extradition and surrender by the Secretary of
State pursuant to 18 U.S.C. § 3186.
FURTHER, I order that the Clerk of this Court forward a
certified copy of this Certification and Committal for Extradition
to the Secretary of State via the below address.
ATTN: Amber Kluesener
U.S. Department of State
Office of the Legal Adviser for Law Enforcement and Intelligence
2201 C Street, NW, Room 4331
Washington, D.C. 20520
SO ORDERED.

/s/ Donald L. Cabell
DONALD L. CABELL, U.S.M.J.
DATED:

September 14, 2020
2

ATTACHMENT B

Case 4:20-mj-01069-DLC Document 56 Filed 09/14/20 Page 1 of 2

UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS

IN THE MATTER OF THE EXTRADITION
OF MICHAEL L. TAYLOR

No. 20-mj-1069-DLC

IN THE MATTER OF THE EXTRADITION
OF PETER M. TAYLOR

No. 20-mj-1070-DLC

CERTIFICATION OF MICHAEL L. TAYLOR AND COMMITTAL FOR EXTRADITION
WHEREAS, on August 28, 2020, this Court held an extradition
hearing in the above-captioned extradition proceedings; and
WHEREAS, on September 4, 2020, this Court issued an
Extradition Certification and Order, after considering the
evidence, including the certified and authenticated documents
submitted by the Government of Japan, and the pleadings and the
arguments of the parties.
NOW THEREFORE, the Court formally certifies to the Secretary
of State for the United States as follows:
1) This Court has jurisdiction over, and the undersigned is
authorized to conduct, extradition proceedings pursuant to 18
U.S.C. § 3184 and Rule 1(e) of the Rules for United States
Magistrate Judges in the United States District Court for the
District of Massachusetts;
2) This Court has personal jurisdiction over Michael L. Taylor
pursuant to 18 U.S.C. § 3184. On May 6, 2020, this Court signed
a complaint filed by the United States in response to the request
of the Government of Japan for Michael L. Taylor’s provisional
arrest with a view towards his extradition and issued a warrant
for his arrest based on the complaint. On May 20, 2020, Michael
L. Taylor was found and arrested in this District pursuant to the
warrant and complaint. On June 29, 2020, Japan submitted to the
United States Department of State its formal request for Michael
L. Taylor’s extradition;
3) The extradition treaty between the United States and the
Government of Japan, Treaty on Extradition Between the United
States of America and Japan, U.S.-Japan, Mar. 26, 1980, 31

ATTACHMENT C

Case 4:20-mj-01069-DLC Document 56 Filed 09/14/20 Page 2 of 2

U.S.T. 892 (“Treaty”), has been in full force and effect at all
times relevant to the extradition proceedings;
4) The Michael L. Taylor whose extradition is sought by the
Government of Japan, and the Michael L. Taylor who was arrested in
this District and who appeared before the Court in the instant
extradition proceedings are one and the same person;
5) Japan seeks Michael L. Taylor’s extradition for the
following offense: Enabling the escape of criminals under Article
103 of the Japanese Penal Code. That offense is included in the
Japanese arrest warrant for Michael L. Taylor that Japan submitted
in support of its extradition request;
6) The above-referenced Treaty between the United States and
Japan encompasses the offense for which the Government of Japan
seeks Michael L. Taylor’s extradition; and
7) There is probable cause to believe that Michael L. Taylor
committed the offense for which extradition is sought.
ACCORDINGLY, I certify the extradition of Michael L. Taylor
to Japan on the offense for which extradition was requested and
commit him to the custody of the United States Marshals Service
pending further decision on extradition and surrender by the
Secretary of State pursuant to 18 U.S.C. § 3186.
FURTHER, I order that the Clerk of this Court forward a
certified copy of this Certification and Committal for Extradition
to the Secretary of State via the below address.
ATTN: Amber Kluesener
U.S. Department of State
Office of the Legal Adviser for Law Enforcement and Intelligence
2201 C Street, NW, Room 4331
Washington, D.C. 20520
SO ORDERED.

/s/ Donald L. Cabell
DONALD L. CABELL, U.S.M.J.
DATED:

September 14, 2020
2

ATTACHMENT C

This is an automatic e-mail message generated by the CM/ECF system. Please DO NOT RESPOND to this e-mail
because the mail box is unattended.
***NOTE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States policy permits attorneys of record
and parties in a case (including pro se litigants) to receive one free electronic copy of all documents filed
electronically, if receipt is required by law or directed by the filer. PACER access fees apply to all other users. To
avoid later charges, download a copy of each document during this first viewing. However, if the referenced
document is a transcript, the free copy and 30 page limit do not apply.
United States District Court
District of Massachusetts
Notice of Electronic Filing
The following transaction was entered on 1/15/2021 at 3:19 PM EST and filed on 1/15/2021
Case Name:
USA v. Taylor
Case Number:
4:20-mj-01070-DLC
Filer:
60(No document
Document Number:
attached)
Docket Text:
Magistrate Judge Donald L. Cabell: ELECTRONIC ORDER entered denying [57] Motion for Reconsideration as to
Peter Maxwell Taylor (1).
Respondent Peter M. Taylor seeks reconsideration of this court's September 4, 2020 determination that there was
probable cause to believe that he violated Article 103 of the Japanese Penal Code. (D. 51). The respondent contends
that "newly discovered evidence" warrants reconsideration, namely evidence indicating that Carlos Ghosn did not
need a key card to operate his hotel elevator, which if true might call into question the reliability of the factual
allegation that Peter Taylor necessarily provided Ghosn with a key card.
As a threshold matter, it is not clear whether this court has authority or jurisdiction to consider the respondent's
motion where (1) the court months ago issued a Certification and Committal for Extradition and transmitted the
matter to the State Department (D. 53); (2) the State Department subsequently determined the respondent should be
extradited and issued a warrant of surrender; and (3) the respondent has since sought relief from extradition
through a habeas proceeding pending in another session which does not challenge any of this court's prior factual
findings. To be sure, the respondent cites to case law reflecting that an extradition court may on motion reconsider
a determination of extraditability where the request comes before the extradition court has made its finding and
issued a Certification. As noted above, though, the request for reconsideration in this case comes months after the
Certification and moreover after the State Department has determined that extradition is appropriate and issued a
warrant for surrender.
But even assuming the motion is properly before the court, the court finds that the motion fails for the reasons
noted in the government's opposition. First, and as the government has explained, the impetus for the motion - the
recanting of a factual assertion the respondent deemed to be material, no longer provides a possible basis for relief
where further investigation by Japanese authorities has revealed that a key card was in fact needed to access the
hotel's elevator. (D. 59 at 6-7). Second, even assuming for the sake of argument that Peter Taylor did not provide
Ghosn with an elevator key card, the remainder of the evidence in the court's view, none of which moreover was
disputed, still provides probable cause to believe that the respondent assisted in the planning, financing, and
execution of Ghosn's escape as alleged. (Id. at 9). As such, the court would anew find probable cause to support
the respondent's extradition even assuming he did not provide Ghosn with a key card. Accordingly, the motion for
reconsideration is DENIED. (Russo, Noreen)
4:20-mj-01070-DLC-1 Notice has been electronically mailed to:
Paul V. Kelly paul.kelly@jacksonlewis.com, bostondocketing@jacksonlewis.com, donna.decoste@jacksonlewis.com,
paul-kelly-3412@ecf.pacerpro.com
James P. Ulwick
Abbe David Lowell

julwick@kg-law.com, tlewis@kg-law.com
adlowell@Winston.com, abbe-lowell-7082@ecf.pacerpro.com

ATTACHMENT D

Stephen W. Hassink stephen.hassink@usdoj.gov, USAMA.ECF@usdoj.gov, eric.mccarthy@usdoj.gov,
stephen.hassink@gmail.com
Philip A. Mirrer-Singer

philip.mirrer-singer@usdoj.gov

4:20-mj-01070-DLC-1 Notice will not be electronically mailed to:

ATTACHMENT D

Case 4:20-cv-11272-IT Document 80 Filed 01/28/21 Page 1 of 3

UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
MICHAEL L. TAYLOR and
PETER M. TAYLOR,
Petitioners,
v.
JEROME P. MCDERMOTT, Sheriff,
Norfolk County, Massachusetts, and
JOHN GIBBONS, United States Marshal,
District of Massachusetts,
Respondents.

*
*
*
*
*
*
*
*
*
*
*
*
*

Civil No. 4:20-cv-11272-IT

MEMORANDUM AND ORDER
January 28, 2021
TALWANI, D.J.
On January 24, 2021, Petitioners Michael Taylor and Peter Taylor filed a Motion to
Amend the Habeas Petition [#79] pursuant to 28 U.S.C. § 2242 and Rule 15 of the Federal Rules
of Civil Procedure. They seek leave to amend their Verified Second Emergency Petition for
Habeas Corpus Pursuant to 28 U.S.C. § 2241 and Injunctive Relief (“Second Habeas Petition”)
[#47] to request that this court review the sufficiency of the factual allegations supporting
probable cause to believe that Peter Taylor violated Article 103 of the Japanese Penal Code and
the Magistrate Judge’s denial of Petitioner Peter Taylor’s motion for reconsideration. Mot. to
Amend [#79]. Although 28 U.S.C. § 2242 and Rule 15 are the proper vehicle for this request, the
Motion to Amend the Habeas Petition [#79] is DENIED.
Under Rule 15, leave to amend a pleading shall be freely granted “when justice so
requires.” Fed. R. Civ. P. 15(a). Nevertheless, a motion for leave to amend may be denied for
reasons such as “undue delay, bad faith or dilatory motive on the part of the movant, repeated

ATTACHMENT E

Case 4:20-cv-11272-IT Document 80 Filed 01/28/21 Page 2 of 3

failure to cure deficiencies by amendments previously allowed, undue prejudice to the opposing
party by virtue of allowance of the amendment, futility of amendment.” Foman v. Davis, 371
U.S. 178, 182 (1962); see also Hatch v. Dep’t for Children, Youth & Their Families, 274 F.3d
12, 19 (1st Cir. 2001).
Here, the Taylors had ample opportunity last summer to contest the factual basis for the
Magistrate Judge’s finding of probable cause that Peter Taylor violated Article 103, but they did
not do so. The Taylors were first arrested on May 20, 2020, and moved to quash their arrest
warrants or for release from detention on June 8, 2020. See Mot. to Quash Arrest Warrants or for
Release from Detention, In the Matter of the Extradition of Peter Taylor, No. 20-mj-01070-DLC
(June 8, 2020), ECF No. 17. There, they did not dispute the facts of the case but rather argued
that the facts as alleged did not constitute a crime under Article 103. Id. They made the same
argument when they filed their first Petition for a Writ of Habeas Corpus pursuant to 28 U.S.C.
§ 2241 (“First Habeas Petition”) [#1] with this court on July 6, 2020; at their extradition hearing
before the Magistrate Judge on August 28, 2020; in their Second Habeas Petition [#47], filed on
October 29, 2020; and at the hearing on that second petition before this court on November 5,
2020.
On December 17, 2020, the Japanese government informed the United States that Carlos
Ghosn did not need a key card to operate the hotel elevator as the Japanese government had
alleged and from which it had inferred that Peter Taylor provided Ghosn with the key card. See
Motion to Stay Habeas Proceeding and Remand to Extradition Magistrate to Address Motion for
Reconsideration of Probable Cause Findings [#68]. 1 Based on this “newly discovered evidence,”

1

On December 31, 2020, the Japanese government withdrew this assertion, concluding that a
room key was required to operate the elevator. Letter to U.S. Dept. of Justice [#70-1].

ATTACHMENT E

Case 4:20-cv-11272-IT Document 80 Filed 01/28/21 Page 3 of 3

the Taylors sought to stay these proceedings and remand the matter to the Magistrate Judge, see
id., while also seeking relief from the Magistrate Judge without waiting on a remand. The
Magistrate Judge denied relief, as did this court. Elec. Order, United States v. Peter Maxwell
Taylor, No. 4:20-mj-01070-DLC (Jan. 15, 2021), ECF No. 60, reprinted as Ex. A – U.S. Notice
[#74-1]; Elec. Order [#76].
The Taylors contend that the Magistrate Judge’s denial of Peter Taylors’ motion for
reconsideration renders their Motion to Amend the Habeas Petition [#79] timely. It does not.
Peter Taylor’s time to challenge the facts proffered by the Japanese government as to his
assistance to Ghosn in escaping from Japan was at his extradition hearing. The Japanese
government’s statement that a room key was not needed to operate the hotel elevator does not
provide cause for Taylor’s eight-month delay in raising any factual challenge. The Motion to
Amend the Habeas Petition [#79] is therefore DENIED as untimely.
IT IS SO ORDERED.
January 28, 2021

/s/ Indira Talwani
United States District Judge

ATTACHMENT E

Case 4:20-cv-11272-IT Document 81 Filed 01/28/21 Page 1 of 29

UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
MICHAEL L. TAYLOR and
PETER M. TAYLOR,
Petitioners,
v.
JEROME P. MCDERMOTT, Sheriff,
Norfolk County, Massachusetts, and
JOHN GIBBONS, United States Marshal,
District of Massachusetts,
Respondents.

*
*
*
*
*
*
*
*
*
*
*
*
*

Civil No. 4:20-cv-11272-IT

MEMORANDUM AND ORDER
January 28, 2021
TALWANI, D.J.
Before the court are the Petitioners Michael Taylor and Peter Taylor’s Verified Second
Emergency Petition for Habeas Corpus Pursuant to 28 U.S.C. § 2241 and Injunctive Relief
(“Second Habeas Petition”) [#47]. The Taylors seek writs of habeas corpus halting their transfer
to the custody of the Japanese government; finding the decision of the Secretary of State
(“Secretary”) to surrender them for extradition arbitrary and capricious and in violation of United
States law; and reversing the decisions of the Magistrate Judge certifying their extraditability. Id.
at 10 (prayer for relief). The Taylors also seek a stay of the transfer of their custody to the
Japanese government until they have had “a full and fair opportunity to receive and review the
State Department administrative record.” Id. at ¶ 13. For the following reasons, the Second
Habeas Petition [#47] is DENIED.

ATTACHMENT F

Case 4:20-cv-11272-IT Document 81 Filed 01/28/21 Page 2 of 29

I.

Procedural Background
In 2018, Carlos Ghosn Bichara (“Ghosn”) was indicted by a Japanese court for financial

crimes allegedly committed during his tenure as the CEO and/or Chairman of the Board of
Directors at Nissan Motor Co., Ltd. Ex. F – Extradition Req. for Michael Taylor at Part IV, ¶¶ 12 [#41-6]. 1 Ghosn was later released on bond and conditions, including that he was forbidden
from leaving Japan. Id. at Part IV, ¶ 4.
On January 30, 2020, and February 28, 2020, a Japanese court issued and reissued
warrants for the Taylors’ arrest for “harboring of criminals and accessoryship of violation of the
Immigration Control and Refugee Recognition Act (Article 71, 25 II)” based on allegations that
they had provided assistance to Ghosn in escaping from Japan. Ex. I – Original Arrest Warrants
[#41-9]; Ex. J – Renewed Arrest Warrants [#41-10].
The government of Japan subsequently requested that the United States issue provisional
arrest warrants pursuant to the treaty governing extradition between the United States and Japan.
Ex. K – Extradition Req. Transmittal [#41-11]; see also Ex. E – Treaty on Extradition, United
States-Japan, effective Mar. 26, 1980, 31 U.S.T. 892 (“Treaty”) [#41-5]. The United States
thereafter filed complaints pursuant to 18 U.S.C. § 3184 in this district, asserting that the Taylors
had violated Article 103 of the Japanese Penal Code. Ex. A – Michael Taylor Compl. [#38-2];
Ex. B – Peter Taylor Compl. [#38-3]. The Magistrate Judge to whom the matter was assigned
issued the requested warrants, and the Taylors were arrested on May 20, 2020.

1

The full proceedings before the Magistrate Judge are docketed at In the Matter of the
Extradition of Michael L. Taylor, No. 20-mj-1069-DLC (D. Mass) (“Michael Taylor MJ
Docket”), and In the Matter of the Extradition of Peter Taylor, No. 20-mj-1070-DLC (D. Mass.).
For convenience, where those dockets are referenced, and the same or similar documents are
filed on both dockets, (albeit with slightly different numbering), the court has cited to the
Michael Taylor MJ Docket.

ATTACHMENT F

Case 4:20-cv-11272-IT Document 81 Filed 01/28/21 Page 3 of 29

The United States moved for detention, and the Taylors were detained pending a request
for a detention hearing. See United States’ Mot. for Detention, Michael Taylor MJ Docket (May
20, 2020), ECF No. 9; Elec. Clerk Notes, Michael Taylor MJ Docket (May 20, 2020), ECF No.
11. The Taylors have been held since that date at the Norfolk County Correctional Facility.
The Taylors subsequently moved to quash their arrest warrants or for release from
detention. See Mot. to Quash Arrest Warrants or for Release from Detention, Michael Taylor MJ
Docket (June 8, 2020), ECF No. 17. While the motions were pending, Japan submitted its formal
extradition request. See Notice of Japan’s Submission of Req. for Extradition, Michael Taylor
MJ Docket (July 2, 2020) ECF No. 37; Ex. K – Extradition Req. Transmittal [#41-11]; see also
Ex. F – Extradition Req. for Michael Taylor [#41-6]. The Magistrate Judge denied the motions,
finding the Taylors’ challenge to the provisional arrests mooted by Japan’s formal extradition
request and further finding that bail was not warranted, as the Taylors pose a flight risk and
failed to establish special circumstances warranting bail. Elec. Order, Michael Taylor MJ Docket
(July 7, 2020) ECF No. 40; Magistrate Judge’s Mem. on Resps.’ Mot. to Quash Arrest Warrants
or for Release from Detention, Michael Taylor MJ Docket (July 10, 2020) ECF No. 41.
Meanwhile, on July 6, 2020, the Taylors filed with this court their first Petition for a Writ
of Habeas Corpus pursuant to 28 U.S.C. § 2241 (“First Habeas Petition”) [#1] and a Motion for
Temporary Restraining Order and Preliminary Injunction [#2]. This court denied the requested
temporary restraining order on July 9, 2020, Elec. Order [#33], and denied the motion for
preliminary injunction and the First Habeas Petition [#1] on August 7, 2020, Mem. & Order 22
[#44]. The court found that the Magistrate Judge’s decision denying bail was properly challenged
prior to the extradition hearing via a petition for a writ of habeas corpus but that the Taylors had
not established special circumstances justifying release on bail or error in the Magistrate Judge’s

ATTACHMENT F

Case 4:20-cv-11272-IT Document 81 Filed 01/28/21 Page 4 of 29

finding that the Taylors posed a flight risk. Id. at 8-18. Pursuant to 28 U.S.C. § 2241, the court
also considered and rejected the Taylors’ contention that they were being improperly held “in
violation of the Constitution or laws or treaties of the United States.” Id. at 19-20. Although the
court found that the Taylors had not presented grounds demonstrating that they were being
unlawfully held, the court did not preclude them from raising these same issues in the extradition
proceedings before the Magistrate Judge. Id. at 21. Finally, the court rejected the Taylors’
allegation that the government had been deliberately indifferent to the risk they face from
COVID-19 and had therefore violated their constitutional rights. Id. at 22.
The Magistrate Judge held an extradition hearing pursuant to 18 U.S.C. § 3184 on August
28, 2020, and issued a written decision finding the Taylors extraditable on September 4, 2020.
Extradition Certification and Order of Commitment [#50-1]. The Magistrate Judge found that the
terms of the Treaty and 18 U.S.C. § 3184 had been satisfied with respect to the extradition
request, and specifically: (1) that the court had subject matter jurisdiction over the proceedings
and the Taylors; (2) that the Treaty was in full force and effect between the United States and
Japan; (3) that the charges for which extradition was sought were crimes pursuant to both
Japanese and United States law and covered by the Treaty; and (4) that there was probable cause
to believe that the Taylors had committed the offenses charged. Id. at 3-10. On September 14,
2020, the Magistrate Judge certified his findings and submitted them to the State Department.
Certifications of Michael and Peter Taylor and Committals for Extradition [#50-3].
On October 28, 2020, the Assistant Legal Adviser for Law Enforcement and Intelligence
at the State Department wrote to the Taylors that, on October 27, 2020, the Deputy Secretary of
State (“Deputy Secretary”) had authorized the Taylors’ surrender to Japan. Ltr. From K. Johnson
[#50-4]. The letter explained that this decision was reached “[f]ollowing a review of all pertinent

ATTACHMENT F

Case 4:20-cv-11272-IT Document 81 Filed 01/28/21 Page 5 of 29

information, including the materials submitted directly to the Department of State” and material
submitted to this court, and that the Department “carefully and thoroughly considers all claims
submitted by a fugitive.” Id. The Assistant Legal Advisor also wrote that “[a]s the official
responsible for managing the Department’s responsibilities in cases of international extradition,”
she “confirm[ed] that the decision to surrender the Taylors to Japan complie[d] with applicable
international obligations as well as domestic statutes and regulations.” Id.
The Taylors filed this Second Habeas Petition [#47] the next day. They also filed an
Emergency Motion to Stay [#48], which the court granted, pending further order of the court, to
allow the court time to review the Second Habeas Petition [#47]. Order [#49]. The court did not
address the Taylors’ further request for a stay until they “had a full and fair opportunity to
receive and review the State Department administrative record.” Elec. Order [#54].
The government subsequently filed its Opposition to Petitioners’ Emergency Motion for
Stay and Response to Second Emergency Petition for Habeas Corpus (“U.S. Mem.”) [#50], and
the court held an expedited hearing on the Second Habeas Petition [#47] on November 5, 2020.
The court permitted supplemental filings, and the government filed the Declaration of Deputy
Secretary Stephen E. Biegun, see U.S. Supplemental Exhibit [#60-1], while the Taylors filed
additional briefing and exhibits, including the submission made on their behalf to the Department
of State, see Supplemental Exhibits in Support of Verified Second Emergency Petition [#59];
Petitioners’ Notices of Filing Supplemental Declarations and Exhibits [#61], [#63]; and
Petitioners’ Response to U.S. Supplemental Exhibit [#62].
The Taylors subsequently sought to stay these proceedings and remand the matter to the
Magistrate Judge, see Motion to Stay Habeas Proceeding and Remand to Extradition Magistrate
to Address Motion for Reconsideration of Probable Cause Findings [#68], while also seeking

ATTACHMENT F

Case 4:20-cv-11272-IT Document 81 Filed 01/28/21 Page 6 of 29

relief from the Magistrate Judge without waiting on a remand. The Magistrate Judge denied
relief, as did this court. Elec. Order, United States v. Peter Maxwell Taylor, No. 4:20-mj-01070DLC (Jan. 15, 2021), ECF No. 60, reprinted as Ex. A – U.S. Notice [#74-1]; Elec. Order [#76].
Most recently, the Taylors have filed a Motion to Amend Habeas Petition [#79] which the court
has also denied as untimely. Order [#80].
II.

Factual Background
The Magistrate Judge has recounted the facts as follows:
Factually speaking, the parties agree, and the court finds support in the
record, that the respondents committed the conduct underlying the charges against
them. Specifically, the court finds that there is probable cause to believe that Peter
Taylor traveled to Japan at least three times and visited Ghosn on at least seven
occasions in the months preceding the escape. Then, on December 28, 2019, Peter
Taylor arrived in Tokyo and checked into a room at the Grand Hyatt. Ghosn then
arrived at the Grand Hyatt and met with Peter Taylor for about an hour. On
December 29, 2019, Michael Taylor and a third individual, George-Antoine
Zayek, traveled on a private jet from Dubai, United Arab Emirates, to Japan’s
Kansai International Airport. At Kansai, Michael Taylor and Zayek carried large
black audio equipment-style cases and told airport workers that they were
musicians. From Kansai, Michael Taylor and Zayek checked into the Star Gate
Hotel Kansai. After placing the cases in one of their rooms, they caught a train
bound for Tokyo at about noon. At 2:30 p.m., also on December 29th, Ghosn left
his home without luggage and walked to the Grand Hyatt, where he apparently
changed into clothing from luggage that had been dropped off and received by
Peter Taylor earlier in the day. Michael Taylor and Zayek arrived in Tokyo at
about 3:30 p.m. and went to Peter Taylor’s room at the Grant Hyatt.
Shortly thereafter, the Taylors, Ghosn, and Zayek left Peter Taylor’s room
at the same time, each carrying luggage. Peter Taylor then traveled to the Narita
Airport to catch a flight to China. However, Ghosn, Michael Taylor, and Zayek
caught a train back to the Kansai Airport area and returned to the Star Gate Hotel
Kansai at approximately 8:15 p.m. At about 10:00 p.m., Michael Taylor and
Zayek left the hotel with luggage, including the two audio-style cases, and went to
Kansai Airport. Surveillance footage did not show Ghosn leaving the hotel. Once
at the airport, the baggage of Michael Taylor and Zayek was loaded onto their
private jet without being checked. The jet departed for Turkey at about 11:00 p.m.
On December 31, 2019, Ghosn announced that he was in Lebanon.

ATTACHMENT F

Case 4:20-cv-11272-IT Document 81 Filed 01/28/21 Page 7 of 29

Extradition Certification and Order of Commitment 6-7 [#50-1]. As the Magistrate Judge
noted in his decision following the extradition hearing, the parties did not dispute the
facts of the case at the extradition hearing. Id. at 6. 2
III.

Discussion
Count I of the Second Habeas Petition [#47] challenges the Secretary’s authorization of

the Taylors’ surrender to Japan as arbitrary and capricious and in violation of United States law.
The Taylors assert that their extradition to Japan would violate the United Nations Convention
Against Torture and Other Cruel, Inhumane or Degrading Treatment or Punishment, Dec. 10,
1984, S. Treaty Doc. No. 100-20, 1465 U.N.T.S. 85 (“Convention Against Torture” or “CAT”);
the International Covenant on Civil and Political Rights, Dec. 19, 1966, S. Treaty Doc. No. 95–
20, 999 U. N. T. S. 176 (“ICCPR”); § 2242 of the Foreign Affairs Reform and Restructuring Act,
Pub. L. No. 105–227, Div. G., § 2242(b), 112 Stat. 2681–761, 2681–822 (1998) (“FARR Act”);
and other “fundamental notions of due process,” “including the right to a speedy trial, the right
not to be subjected to lengthy and coercive interrogation in the absence of counsel, protection

2

Peter Taylor’s motion for reconsideration of the Magistrate Judge’s determination asserted that,
based on “newly discovered evidence,” Carlos Ghosn did not need a key card to operate the hotel
elevator as the Japanese government had alleged and from which it had inferred that Peter Taylor
provided Ghosn with the key card. Motion to Stay Habeas Proceeding and Remand to
Extradition Magistrate to Address Motion for Reconsideration of Probable Cause Findings [#68].
In opposition, the government contends that further evidence establishes that the Japanese
government’s original finding regarding the key card was correct. U.S. Opposition 3 [#70] and
attached exhibits [#70-1], [#70-2]. The Magistrate Judge concluded that the impetus for the
motion for reconsideration “no longer provides a possible basis for relief where further
investigation by Japanese authorities has revealed that a key card was in fact needed to access the
hotel’s elevator” and that “even assuming for the sake of argument that Peter Taylor did not
provide Ghosn with an elevator key card, the remainder of the evidence in the court’s view, none
of which moreover was disputed, still provides probable cause to believe that [Peter Taylor]
assisted in the planning, financing, and execution of Ghosn’s escape as alleged.” Elec. Order,
United States v. Peter Maxwell Taylor, No. 4:20-mj-01070-DLC (Jan. 15, 2021), ECF No. 60,
reprinted as Ex. A – U.S. Notice [#74-1].

ATTACHMENT F

Case 4:20-cv-11272-IT Document 81 Filed 01/28/21 Page 8 of 29

against cruel and unusual punishment, the presumption of innocence, and the right against selfincrimination.” Second Habeas Petition ¶ 23 [#47]. Count II asserts that the Taylors’ arrest and
confinement was without probable cause in violation of the Fourth Amendment to the
Constitution. Id. at ¶¶ 26-32; see also First Habeas Petition ¶¶ 36-42 [#1]. Count III asserts that
the arrest and confinement violate the Treaty. Second Habeas Petition ¶¶ 33-41; see also First
Habeas Petition ¶¶ 43-51 [#1]. Count IV asserts that the arrest and confinement violate 18 U.S.C.
§ 3184. Second Habeas Petition ¶¶ 42-45 [#47]; see also First Habeas Petition ¶¶ 52-55 [#1].
And finally, the Taylors allege that their arrest and confinement violate the Fifth Amendment to
the Constitution in light of the dangers posed by COVID-19. Second Habeas Petition ¶¶ 46-52
[#47]; see also First Habeas Petition ¶¶ 56-61 [#1].
The government argues that the filing of the Second Habeas Petition [#47] is an abuse of
the writ of habeas corpus; that review of the Magistrate Judge’s decision should have been
sought when that decision issued, rather than after the Secretary made his determination; and that
this court is without jurisdiction to consider the claims in Count I. U.S. Mem. 3-4 [#50].
The court agrees that the Taylors’ reiteration of the challenges to their confinement in
light of the dangers posed by COVID-19 and to their initial arrest deserve no further scrutiny or
reconsideration of the court’s decision on their First Habeas Petition [#1]. However, the Taylors
are not barred by virtue of the earlier habeas petition from challenging the Magistrate Judge’s
subsequent extradition decision. See e.g., United States v. Kin-Hong, 110 F.3d 103, 107-08 &
n.3 (1st Cir. 1997) (recounting that petitioner, who had filed a pre-certification writ of habeas
corpus, “filed an amended petition for writ of habeas corpus,” and noting that the writ of habeas
corpus was “the only avenue by which a fugitive sought for extradition . . . may attack the
magistrate judge’s decision”). And although the government may have preferred that the Second

ATTACHMENT F

Case 4:20-cv-11272-IT Document 81 Filed 01/28/21 Page 9 of 29

Habeas Petition [#47] be filed immediately after the Magistrate Judge’s decision, the Taylors
offer some authority for considering a habeas petition after the Secretary’s decision, see Pet.
Mem. 18 [#57] (citing Venckiene v. United States, 929 F.3d 843 (7th Cir. 2019)), and the court
has found no contrary authority barring consideration now. Accordingly, the court turns first to
the Taylors’ claim that their confinement violates the Treaty and 18 U.S.C. § 3184 based on a
lack of probable cause that they committed an extraditable offense and then to their claims under
Count I, as well as the government’s challenge to this court’s jurisdiction to consider those
claims.
A. Challenges Under 18 U.S.C. § 3184
The statutory scheme governing extradition, 18 U.S.C. § 3181 et seq., sets forth “a twostep procedure which divides responsibility for extradition between a judicial officer and the
Secretary of State.” Kin-Hong, 110 F.3d at 109. Pursuant to 18 U.S.C. § 3184, the Magistrate
Judge was obligated (1) to determine if the crime charged was covered by the Treaty; (2) to
conduct a hearing to determine if the evidence was sufficient to sustain the charge under the
Treaty; and, if so, (3) to “certify” to the Secretary that a warrant for the surrender of the relator
“may issue.” 18 U.S.C. § 3184; see also Kin-Hong, 110 F.3d at 109.
The Taylors did not dispute in the proceedings before the Magistrate Judge or in their
Second Habeas Petition [#47] that there is probable cause to find that they assisted Ghosn in
leaving Japan 3 or that, at the time, Ghosn was charged with a crime. They argue instead that, at
the time of the alleged crime, Article 103 of the Japanese Penal Code did not make it unlawful to
assist someone charged with a crime but released on bail in escaping from Japan. Pet. Mem. 20-

3

As set forth above, Petitioners have belatedly sought to challenge the probable cause
determination as to Peter Taylor, but this challenge is untimely. See Order [#80].

ATTACHMENT F

Case 4:20-cv-11272-IT Document 81 Filed 01/28/21 Page 10 of 29

24 [#57]. They further contend that the Magistrate Judge erroneously gave “conclusive weight”
to the Japanese government’s interpretation of its laws and failed to consider the arguments
offered by the Taylors. Id. at 25. In the Taylors’ view, “such deference would render judicial
review a meaningless exercise in the extradition context, where a foreign government always
will argue that something is prosecutable under its law, and it would strip United States citizens
of their right to have their constitutional rights protected by Article III courts.” Id.
But “extradition proceedings are not vehicles for United States federal courts to interpret
and opine on foreign law,” Noeller v. Wojdylo, 922 F.3d 797, 805 (7th Cir. 2019), and the
Taylors’ unsupported assertion that the court must delve deeply into foreign law in order to
protect United States citizens in extradition proceedings is misplaced. Citizens are protected
from the threat that a foreign government will simply “argue that something is prosecutable
under its laws” not by the court’s opining on foreign law but by the dual criminality provisions in
extradition treaties. See Kin-Hong, 110 F.3d at 114. A “dual criminality requirement” ensures
“that extradition is granted only for crimes that are regarded as serious in both countries.” Id.
(citing United States v. Saccoccia, 58 F.3d 754, 766 (1st Cir. 1995); Restatement (Third) of the
Foreign Relations Law of the United States § 476, cmt. d (1987); id. § 475, cmt. c). “‘[U]nless a
plausible challenge is raised by the person sought, the authorities in the requested state will
presume that the acts alleged constitute a crime under the law of the requesting state, and will
consider whether the acts alleged constitute a crime under the law of the requested state.’”
DeSilva v. DiLeonardi, 125 F.3d 1110, 1113–14 (7th Cir. 1997) (quoting Restatement (Third) of
the Foreign Relations Law of the United States § 476, cmt. D); see also In re Assarsson, 635 F.2d
1237, 1244 (7th Cir.1980) (discussing dangers of delving into foreign law).
Here, the Magistrate Judge found:

ATTACHMENT F

Case 4:20-cv-11272-IT Document 81 Filed 01/28/21 Page 11 of 29

that the charges for which extradition is sought are crimes pursuant to both Japanese and
United States law and covered by the Treaty. Article I of the Treaty provides for the
return to Japan of persons found in the United States who are sought by Japan for
prosecution, trial or to execute punishment for any offense specified in Article II of the
Treaty. Article II of the Treaty provides for extradition for offenses listed in an annexed
schedule which includes an offense relating to obstruction of justice, including harboring
criminals. The [Taylors] have been charged for their involvement in harboring or
enabling the escape of someone charged with a crime, in violation of Article 103 of the
Japanese Penal Code. This offense would also be subject to criminal prosecution under
various United States statutes, including among others 18 U.S.C. § 1073 and 18 U.S.C.
§§ 3148(a) and 401.
Extradition Certification and Order of Commitment 5 [#50-1]. 4 The Taylors do not dispute that
the actions they are accused of amount to a crime under United States law, as well as obstruction
of justice under the Treaty. Accordingly, their fear that “foreign government always will argue
that something is prosecutable under its law” and that the court must therefore deeply analyze
Japanese law is unfounded.
In any event, the Taylors’ complaint is misplaced, where the Magistrate Judge did engage
in the limited review of Japanese law necessary to ensure that the requirements of the extradition
statute and treaty were satisfied. See Skaftouros v. United States, 667 F.3d 144, 156 (2d Cir.
2011) (“Judicial officers considering extradition requests—and, by extension, district judges
considering habeas petitions challenging extradition orders—should not engage in an analysis of
the demanding country’s laws and procedure, except to the limited extent necessary to ensure
that the requirements of the federal extradition statute and the applicable extradition treaty have
been satisfied”). Here, the Magistrate Judge explained that Article 103, as written, “makes it a

4

Article II also defines crimes covered by the Treaty as those “punishable by the federal laws of
[the United States and by the laws of Japan] by death, by life imprisonment, or by deprivation of
liberty for a period of more than one year.” Ex. E – Treaty [#41-5]. Individuals convicted of
violating Article 103 face a maximum imprisonment of 3 years. See Ex. Q – Masayuki Yoshida
Decl. ¶ 6 n.1 [#41-17].

ATTACHMENT F

Case 4:20-cv-11272-IT Document 81 Filed 01/28/21 Page 12 of 29

crime to ‘harbor or enable[] the escape of another person who has . . . committed a crime,’” and
that “the Government of Japan has through declarations and case citations presented a reasonable
interpretation of Article 103 under which the [Taylors’] conduct would constitute a violation of
that provision.” Extradition Certification and Order of Commitment 10 [#50-1].
The Taylors object that the Magistrate Judge should also have considered the arguments
of their expert, Professor William Cleary of Hiroshima Shudo University. See Pet. Mem. 19-24
[#57]; see also Ex. C – William Cleary Decl. [#57-4]; Ex. D – Suppl. William Cleary Decl. [#575]; Ex. E – Second Suppl. William Cleary Decl. [#57-6]. Notably, the Taylors offer no authority
for the more piercing inquiry into Japanese law that they seek.
Nor do Professor Cleary’s arguments that Japan is misinterpreting its own law by
applying Article 103 to the Taylors’ conduct raise a plausible challenge to a finding of an
extraditable offense. As noted above, Article 103 “makes it a crime to ‘harbor or enable[] the
escape of another person who has . . . committed a crime.’” It also punishes a person who
harbors or enables the escape of a person “who has escaped from confinement.” Ex. O –
Japanese Treatise [#41-15]. Professor Cleary argues that the verb toso, translated to “escape from
confinement” in the latter part of Article 103, refers to an “escape from a place of physical
confinement, such as a jail, prison or detention center” and therefore does not apply to jumping
bail. Ex. E – Second Suppl. William Cleary Decl. ¶ 6 [#57-6]. But this explanation is of little
moment where the Taylors are charged with harboring or enabling the escape of a person alleged
to have “committed a crime.”
Professor Cleary further asserts that the statute does not apply here because bail jumping
is not, on its own, a crime under Japanese law. Ex. C – William Cleary Decl. ¶¶ 10-11, 15 [#574]. However, whether “bail jumping” is a crime under Japanese law does not matter where the

ATTACHMENT F

Case 4:20-cv-11272-IT Document 81 Filed 01/28/21 Page 13 of 29

Taylors are not charged with “bail jumping” and Ghosn’s alleged crime that positions him as
“another person who has . . . committed a crime” is not bail jumping but the financial crimes for
which he was indicted. See Ex. Q – Masayuki Yoshida Decl. ¶ 7 [#41-17] (stating that the phrase
“another person who has . . . committed a crime” is understood to either mean an individual
convicted of a crime or an individual being investigated for committing a crime).
Professor Cleary also argues that the verb used in the first part of Article 103—inpi—
encompasses both to “harbor” and to “enable the escape of” but that this verb applies to “a single
concept that describes working against law enforcement authorities’ active pursuit of a criminal
to arrest him.” Ex. E – Second Suppl. William Cleary Decl. ¶ 5 [#57-6]. That interpretation
appears consistent with both sides’ understanding of the statute, as well as that set forth in
material provided by the Japanese prosecutor. Ex. Q – Masayuki Yoshida Decl. ¶ 6 [#41-17]
(citing Judgment of Japanese Supreme Court, May 1, 1989, Kei-shu vol. 43, No. 5, p. 405)
(Article 103 is a statute that “intends to punish a person who interferes with the criminal justice
system in a broad sense, such as investigations, court proceedings and executions of sentences”)
(emphasis added). However, the further limitation offered by Professor Cleary—that the statute
applies only to those who assist someone seeking to “flee from a scene of a crime or an arrest or
to escape confinement,” see Ex. C – William Cleary Decl. ¶ 14 [#57-4]; Ex. D - Second Suppl.
William Cleary Decl. ¶¶ 5, 10 [#57-4]—is an unsupported claim delving well beyond the inquiry
to be made by the extradition court. And while Professor Cleary cites cases where defendants
were charged under Article 103 for assisting others evade imminent arrest, his broad assertion
that inpi can apply only to such circumstances is contradicted by the Japanese legal treatise
originally submitted by the Taylors that states that inpi, in the sense of an act to “enable the
escape,” covers acts that hinder “arrest or discovery” by law enforcement, therefore extending to

ATTACHMENT F

Case 4:20-cv-11272-IT Document 81 Filed 01/28/21 Page 14 of 29

situations when arrest is not law enforcement’s present aim. Ex. O – Japanese Treatise [#41-15]
(emphasis added). The United States has thus sufficiently established that the actions the Taylors
are alleged to have committed amount to an extraditable offense under then-existing Japanese
law and that the Taylors’ challenge to the Magistrate Judge’s certification of extradition fails.
Under the extradition statute, the Secretary “has the authority to review the judicial
officer’s findings of fact and conclusions of law de novo, and to reverse the judicial officer’s
certification of extraditability if [he] believes that it was made erroneously.” 5 The Taylors have
no right to review of the Secretary’s decision not to reverse the Magistrate Judge’s certificate of
extraditability, however, for under the extradition statute, once a Magistrate Judge has certified
the extradition “[i]t is then within the Secretary of State’s sole discretion to determine whether or
not the relator should actually be extradited.” Kin-Hong, 110 F.3d. at 109.
B. Remaining Challenges
Count I of the Taylor’s Second Habeas Petition [#47] challenges the Secretary’s
authorization of their surrender to Japan as violations of the Convention Against Torture, as
implemented by the FARR Act, and the ICCPR, as well as “other fundamental notions of due
process,” “such as a right to a speedy trial and the right to counsel during interrogations.” Pet.
Mem. 3-4, 8 [#57].
The Taylors’ objection that their detention would violate “notions of due process” is
exactly the kind of claim that falls beyond the scope of the court’s review under the rule of non-

5

The Secretary may also “decline to surrender the relator on any number of discretionary
grounds, including but not limited to, humanitarian and foreign policy considerations. The State
Department alone, and not the judiciary, has the power to attach conditions to an order of
extradition. Of course, the Secretary may also elect to use diplomatic methods to obtain fair
treatment for the relator.” Id. at 109-10 (internal citations omitted).

ATTACHMENT F

Case 4:20-cv-11272-IT Document 81 Filed 01/28/21 Page 15 of 29

inquiry. See Neely v. Henkel, 180 U.S. 109, 123 (1901) (“When an American citizen commits a
crime in a foreign country, he cannot complain if required to submit to such modes of trial and to
such punishment as the laws of that country may prescribe for its own people, unless a different
mode be provided for by treaty stipulations between that country and the United States”); see
also Hilton v. Kerry, 754 F.3d 79, 84–85 (1st Cir. 2014).
The Taylors’ claim that their extradition would violate the Secretary’s obligations under
the ICCPR, Pet. Mem. 13 [#57], fairs no better. The ICCPR is not a self-executing treaty, see
Sosa v. Alvarez-Machain, 542 U.S. 692, 728 (2004), and has not been implemented domestically
by statute. It is therefore not binding as a matter of domestic law and does not constitute federal
law that is judicially enforceable. See Igartúa–De La Rosa v. United States, 417 F.3d 145, 150
(1st Cir. 2005) (en banc).
The Convention Against Torture claim, however, requires greater scrutiny. The Taylors
argue that the Convention Against Torture, as implemented by the FARR Act, creates an
independent substantive basis on which they can challenge the legality of the Secretary’s
decision to extradite them and, therefore, the legality of their detention pending that extradition.
Pet. Mem. 5 [#57]. The government counters that, to the extent such claims exist, Congress has
stripped federal courts’ jurisdiction over them. U.S. Mem. 9 [#50]. The court considers first
whether such a claim exists, then turns to the jurisdictional issue and the scope of habeas review
before considering the merits of this claim.
1.

Existence of the Claim

Article 3 of the Convention Against Torture provides that “[n]o State Party shall expel,
return (‘refouler’) or extradite a person to another State where there are substantial grounds for
believing that he would be in danger of being subjected to torture.” CAT Art. 3, § 1. Following

ATTACHMENT F

Case 4:20-cv-11272-IT Document 81 Filed 01/28/21 Page 16 of 29

Senate ratification in 1990, the Convention Against Torture entered into force in November 1994
for the United States. See Regulations Concerning the Convention Against Torture, 64 Fed. Reg.
8478, 8478 (Feb. 19, 1999). The Convention Against Torture is not self-executing and, by its
own force, does not confer any judicially enforceable rights on individuals. See Saint Fort v.
Ashcroft, 329 F.3d 191, 202 (1st Cir. 2003). However, Congress domestically implemented most
of the United States’ obligations under the Convention Against Torture, including Article 3,
through the FARR Act.
To that end, the FARR Act reiterates the Convention Against Torture’s prohibition
against extraditing to torture, stating that “[i]t shall be the policy of the United States not to
expel, extradite, or otherwise effect the involuntary return of any person to a country in which
there are substantial grounds for believing the person would be in danger of being subjected to
torture.” FARR Act § 2242(a) (codified at 8 U.S.C. § 1231 note). It also directs the “heads of the
appropriate agencies”—here, the State Department—to “prescribe regulations to implement the
obligations of the United States under Article 3” of the Convention Against Torture. Id. at
§ 2242(b).
By “incorporate[ing] the language of CAT itself, enacting as U.S. domestic policy the
international obligation the United Sates undertook in ratifying CAT” and then “direct[ing] the
Executive ‘to implement the obligations of the United States under’ CAT and specif[ying] how
such implementation ought to occur,” “the text and structure of the FARR Act confirm that it
does impose a binding obligation on the Secretary State not to extradite individuals likely to face
torture.” Trinidad y Garcia v. Thomas, 683 F.3d 952, 987-88 (9th Cir. 2012) (en banc) (Berzon,
C.J., concurring in part and dissenting in part) (emphasis original); see also id. at 988 (“The
FARR Act’s mandate to agencies that they ‘implement’ the United States’ obligations under

ATTACHMENT F

Case 4:20-cv-11272-IT Document 81 Filed 01/28/21 Page 17 of 29

CAT is a direction to put into practice the mandatory Article 3 obligations undertaken by signing
CAT and incorporated into U.S. law by the FARR Act. . . . [This subsection] compels the
conclusion that the FARR Act imposes upon the Executive an obligation to abide by CAT”). For
these reasons, “the duty imposed upon the Secretary extends beyond simply considering whether
[the relator] is more likely than not to face torture. [The Secretary] is required not to extradite
[the relator] if there are substantial grounds to believe that he is more likely than not to face
torture.” Id. at 996 (emphasis original). 6 This requirement creates a substantive right against
extradition if it is “more likely than not” that the petitioner will be tortured. See Saint Fort, 329
F.3d at 202 (citing Wang v. Ashcroft, 320 F.3d 130, 141 (2d Cir. 2003)).
2.

Jurisdiction

The court turns next to the question of whether it has jurisdiction to consider the Taylors’
claim that, on the information available to the Secretary, they are more likely than not to be
tortured in Japan and that the Secretary’s decision to extradite them is therefore illegal under the
FARR Act. Pet. Mem. 8-14 [#57]. If their extradition is illegal under the FARR Act, it follows
that there is no basis for their continued detention. This is exactly the type of claim that is
addressed through habeas corpus: the writ’s very foundation is as a check on the arbitrary
exercise of executive discretion. See Boumediene v. Bush, 533 U.S. 723, 744-45, 785, 794, 797
(2008).
A petition for a writ of habeas corpus seeks judicial review of the legality of a prisoner’s
detention, and this “Great Writ” has been much celebrated as foundational to modern principles
of liberty. See, e.g., Fay v. Noia, 372 U.S. 391, 402 (1963), overruled in part by Wainwright v.

6

For purposes of the State Department regulations implementing the FARR Act, the term
“Secretary” is defined to mean the Secretary or the Deputy Secretary. 22 C.F.R. 95.1(d).

ATTACHMENT F

Case 4:20-cv-11272-IT Document 81 Filed 01/28/21 Page 18 of 29

Sykes, 433 U.S. 72 (1977) (noting that the history of the habeas corpus is “inextricably
intertwined with the growth of fundamental rights of personal liberty”). But unlike in some state
constitutions, see, e.g., Massachusetts Constitution of 1780, pt. 2, ch. 6, art. VII, the federal
Constitution does not explicitly guarantee the availability of habeas corpus; rather, it presupposes
the existence of the writ by limiting the circumstances in which Congress may suspend it. See
U.S. CONST. art. I, § 9, cl. 2.
The Suspension Clause states that “[t]he Privilege of the Writ of Habeas Corpus shall not
be suspended, unless when in Cases of Rebellion or Invasion the public Safety may require it.”
Id. The text of the Suspension Clause does not, itself, guarantee any content to the writ, but it is
more than a negative restraint on Congress: “‘at the absolute minimum’ the Clause protects the
writ as it existed when the Constitution was drafted and ratified.” Boumediene, 553 U.S. at 746
(quoting I.N.S. v. St. Cyr, 533 U.S. 289, 313 (2001), superseded on other grounds by statute,
REAL ID Act of 2005, Pub. L. No. 109–13, Div. B., § 106(a)(1)(B), 119 Stat. 231, 310 (2005)
(“REAL ID Act”), as recognized in Nasrallah v. Barr, 140 S. Ct. 1683, 1690 (2020)). Much has
been written about the history of habeas corpus, see, e.g., Fay, 371 U.S. at 399-415;
Boumediene, 553 U.S. at 739-46, and it suffices to say here that the writ, as it existed when the
Constitution was ratified, was available to those who sought to challenge their transfer beyond
the jurisdiction of the habeas court. See Kiyemba v. Obama, 561 F.3d 509, 523 (D.C. Cir. 2009)
(Griffith, C.J., concurring in the judgment in part and dissenting in part) (“The bar against
transfer beyond the reach of habeas protections is a venerable element of the Great Writ and
undoubtedly part of constitutional habeas”); see also Habeas Corpus Act, 1679, 31 Car. 2, c. 2, §
12 (Eng.) (“[N]o subject . . . may be sent . . . into parts, garrisons, islands or places beyond the
seas . . . within or without the dominions of his Majesty”).

ATTACHMENT F

Case 4:20-cv-11272-IT Document 81 Filed 01/28/21 Page 19 of 29

The government argues that federal courts lack jurisdiction to entertain challenges to
extradition based on the FARR Act and the REAL ID Act. Although Congress may not suspend
habeas corpus, it may restrict access to the writ so long as it provides an “adequate and effective”
substitute. Swain v. Pressley, 430 U.S. 372, 381 (1977). The court therefore considers whether
Congress restricted access to the writ and provided an adequate and effective substitute that
would revoke the court’s jurisdiction over the Taylors’ FARR Act claims.
Section 2242(d) of the FARR Act states:
Notwithstanding any other provision of law, and except as provided in the regulations
described in subsection (b), . . . nothing in this section shall be construed as providing any
court jurisdiction to consider or review claims raised under the [Convention Against
Torture] or this section, or any other determination made with respect to the application
of the policy set forth in subsection (a), except as part of the review of a final order of
removal pursuant to section 242 of the Immigration and Nationality Act (8 U.S.C. 1252).
FARR Act § 2242(d) (codified at 8 U.S.C. § 1231 note). The government would have the court
read this section to limit review of Convention Against Torture claims to the review process
available for final orders of removal. But in Saint Fort v. Ashcroft, the First Circuit foreclosed
the argument that this provision bars habeas review. See 329 F.3d at 201. The court held that the
FARR Act’s failure to provide jurisdiction had no impact on habeas cases, since a different
federal statute—28 U.S.C. § 2241—already conferred the federal courts jurisdiction over habeas
cases in which a petitioner claimed detention “in violation of the Constitution or laws of treaties
of the United States.” Id. Neither did the FARR Act revoke that jurisdiction because, where the
statute did not “expressly refer to 28 U.S.C. § 2241 or to habeas review,” the court declined to
“imply an intent to repeal habeas jurisdiction from silence.” Id. To do so “would give rise to
grave constitutional concerns” given the “lack of an alternative forum” in which the claim could
be raised. Id. But see Omar v. McHugh, 646 F.3d 13, 23 n.10 (D.C. Cir. 2011) (suggesting that
the Suspension Clause applies only to the statutory claims available in 1789).

ATTACHMENT F

Case 4:20-cv-11272-IT Document 81 Filed 01/28/21 Page 20 of 29

The government’s reliance on the REAL ID as divesting this court of jurisdiction over the
Taylors’ FARR Act claim suffers from the same deficiencies. The REAL ID Act amended § 242
of the Immigration and Nationality Act (“INA”), 8 U.S.C. § 1252, to expressly bar habeas review
of final orders of removal. See Ishak v. Gonzales, 422 F.3d 22, 28 (1st Cir. 2005). In relevant
part, the REAL ID Act provides:
Notwithstanding any other provision of law (statutory or nonstatutory), including
section 2241 of title 28, or any other habeas corpus provision, and sections 1361
and 1651 of such title, a petition for review filed with an appropriate court of
appeals in accordance with this section shall be the sole and exclusive means for
judicial review of any cause or claim under the United Nations Convention
Against Torture and Other Forms of Cruel, Inhuman, or Degrading Treatment or
Punishment.
8 U.S.C. § 1252(a)(4). The government is correct that the REAL ID Act expressly strips habeas
jurisdiction from the federal courts. But the stripping of jurisdiction must be limited to its
context.
The REAL ID Act is an immigration statute that affects specified immigration
proceedings. It prescribes that the “sole and exclusive means for judicial review of an order of
removal” is by way of a petition for review in the appropriate court of appeals. 8 U.S.C.
§ 1252(a)(5). As other courts have noted, it is highly improbable that Congress intended the
REAL ID Act—the point of which was to consolidate review of immigration claims into a direct
review process—to revoke the courts’ jurisdiction in non-immigration cases where direct review
is unavailable. See Trinidad y Garcia, 683 F.3d at 956. But, more fundamentally, such a
revocation would violate the Suspension Clause. In removal proceedings, individuals can invoke
the Convention Against Torture and the FARR Act as a basis to challenge deportation and to
have the executive agency’s factual determinations about the likelihood of torture reviewed by a
federal court of appeals. See Nasrallah, 140 S. Ct. at 1694. No such alternative process exists for
those detained pending extradition. Accordingly, to avoid a construction that violates the

ATTACHMENT F

Case 4:20-cv-11272-IT Document 81 Filed 01/28/21 Page 21 of 29

Suspension Clause, the court concludes that it has jurisdiction to hear the Taylors’ claims
brought under the Convention Against Torture, as implemented by the FARR Act.
3.

Scope of Review

The government also claims that the so-called “rule of non-inquiry” prevents the court
from considering the Taylors’ FARR Act claims. U.S. Mem. 9 [#50]. However, the rule of noninquiry is not a jurisdictional rule. See Kin-Hong, 110 F.3d at 112 (“None of these principles,
including non-inquiry, may be regarded as an absolute”); see also Aguasvivas v. Pompeo, No.
19-1937, 2021 WL 58142, at *3 n.6 (1st Cir. Jan. 7, 2021). Rather, it relates to the scope of the
court’s habeas review.
The rule of non-inquiry “bars courts from evaluating the fairness and humaneness of
another country’s criminal justice system, requiring deference to the Executive Branch on such
matters.” Hilton, 754 F.3d at 84–85 (quoting Khouzam v. Att’y Gen., 549 F.3d 235, 253 (3d Cir.
2008)). That is not to say that a foreign nation’s ability and willingness to provide justice is
irrelevant to the extradition decision but rather that these are issues for the executive and
legislative branches. Consideration of the procedural protections in the country requesting
extradition is therefore not within the scope of this court’s habeas review. See Hilton, 754 F.3d at
89 (quoting Holmes v. Laird, 459 F.2d 1211, 1219 (D.C. Cir. 1972)) (“[I]t is well settled that
‘surrender of an American citizen required by treaty for purposes of a foreign criminal
proceeding is unimpaired by an absence in the foreign judicial system of safeguards in all
respects equivalent to those constitutionally enjoined upon American trials’”).
But while the rule of non-inquiry mandates deference insofar as a petitioner’s allegations
concern the constitutionality of the conduct of a foreign jurisdiction, “it is indubitably the role of
courts to ensure that American officials obey the law.” Trinidad y Garcia, 683 F.3d at 995

ATTACHMENT F

Case 4:20-cv-11272-IT Document 81 Filed 01/28/21 Page 22 of 29

(Berzon, C.J., concurring in part and dissenting in part) (emphasis added). Where a petitioner
claims that the Secretary has violated his statutory obligations under the FARR Act, the court has
both the authority and the responsibility to ensure that his discretion to extradite—and, therefore,
to detain the petitioners pending extradition—is being exercised within the parameters of the law
established by Congress. See Hamdi v. Rumsfeld, 542 U.S. 507, 536 (2004) (plurality opinion)
(“[T]he Great Writ of habeas corpus allows the Judicial Branch to play a necessary role in
maintaining this delicate balance of governance, serving as an important judicial check on the
Executive’s discretion in the realm of detentions”). See also Trinidad y Garcia, 683 F.3d at 995
(collecting cases). The court therefore considers the scope of that review.
Development of habeas corpus has long been linked, historically and conceptually, to due
process. See, e.g., Hamdi, 542 U.S. at 529 (the “most elemental” liberty interest protected by the
Due Process Clause is “the interest in being free from physical detention by one’s own
government”). At its core, due process requires that a deprivation of life, liberty, or property “be
preceded by notice and opportunity for hearing appropriate to the nature of the case.” Mullane v.
Cent. Hanover Bank & Trust Co., 339 U.S. 306, 313 (1950). It follows, then, that in the context
of executive detention, the primary concern under a due process analysis is the adequacy of the
procedures employed by the executive branch in subjecting an individual to detention. The one
appellate court to have considered the Convention Against Torture in the context of extradition
has thus concluded that “the scope of habeas review allows courts to examine whether the
Secretary has complied with her non-discretionary obligations” under the FARR Act and its
implementing regulations. Trinidad y Garcia, 683 F.3d at 961 (Thomas, J., concurring). In effect,
this approach treats claims brought under the FARR Act as creating a liberty interest that triggers
due process considerations, which are satisfied if the Secretary certifies to the court that he has

ATTACHMENT F

Case 4:20-cv-11272-IT Document 81 Filed 01/28/21 Page 23 of 29

“considered” whether the petitioner is more likely than not to face torture. See id. at 957
(plurality opinion).
If the Due Process Clause, alone, governed habeas review, the Ninth Circuit’s approach
in Trinidad y Garcia would suffice. However, the Supreme Court has held that the Suspension
Clause necessitates more than due process; it requires “a meaningful opportunity to contest the
factual basis for [the] detention before a neutral decisionmaker.” Hamdi, 542 U.S. at 510. “Even
when the procedures authorizing detention are structurally sound, the Suspension Clause remains
applicable and the writ relevant.” Boumediene, 553 U.S. at 785.
The adequacy of this “meaningful opportunity” to demonstrate that one’s detention is
unlawful depends on “the rigor of any earlier proceedings”: for example, “when a person is
detained by executive order, rather than, say, after being tried and convicted in a court, the need
for collateral review is more pressing.” Id. at 782-83. Under such circumstances, for the habeas
corpus “to function as an effective and proper remedy . . . the court that conducts the habeas
proceeding must have the means to correct errors that occur during the [prior] proceedings.” Id.
at 786. And “[i]f a detainee can present reasonably available evidence demonstrating there is no
basis for his continued detention, he must have the opportunity to present this evidence to a
habeas corpus court.” Id. at 790. In short, the Suspension Clause provides an independent basis
for habeas corpus with its own scope of review.
As explained above, the FARR Act creates a substantive right not to be extradited to
torture, and accordingly, under the Suspension Clause, that substantive right requires the court to
consider more than procedural adequacy on habeas review. In this case, where the Taylors have
had no opportunity to contest the factual basis of the Secretary’s determination that they will not
be tortured in Japan, this court’s review “must extend not only to determining whether the

ATTACHMENT F

Case 4:20-cv-11272-IT Document 81 Filed 01/28/21 Page 24 of 29

Secretary considered [the petitioners’] claim that [they] would be tortured but to ascertaining that
[]he complied with [his] obligation not to extradite where, on the available information, torture is
more likely than not.” Trinidad y Garcia, 683 F.3d at 996 (Berzon, J., concurring in part and
dissenting in part).
The government counters that the Supreme Court’s decision in Munaf v. Geren, requires
absolute deference to the Secretary’s determination regarding the likelihood of torture under the
FARR Act and its enacting regulations, U.S. Mem. 10 [#50]; however, Munaf reserved that
issue, and the court declines to read Munaf as settling a question that it explicitly did not, 553
U.S. 674, 703 n.6 (2008) (“We hold that these habeas petitions raise no claim for relief under the
FARR Act and express no opinion on whether Munaf and Omar may be permitted to amend their
respective pleadings to raise such a claim on remand”). Munaf involved habeas petitions brought
by two United States citizens who had voluntarily traveled to Iraq and allegedly committed
crimes there. Id. at 679. The petitioners were detained by the United States military in Iraq, the
Iraqi government requested that they be transferred to Iraqi criminal custody, and they objected
to transfer on the grounds that they would be tortured. Id. The court held that the federal district
court could not enjoin the United States military from transferring individuals alleged to have
committed crimes and detained within the territory of a foreign sovereign to that sovereign for
criminal prosecution. Id. at 689. And it emphasized that “prudential concerns,” such as
international comity and respect for the sovereignty of foreign states, “render[ed] invalid
attempts to shield citizens from foreign prosecution” in such circumstances. Id. at 693, 699.
Munaf contained two important caveats, though. First, the petitioners claimed that they
should not be transferred to Iraqi criminal custody because they were “innocent civilians who
ha[d] been unlawfully detained by the United States in violation of the Due Process Clause.” Id.

ATTACHMENT F

Case 4:20-cv-11272-IT Document 81 Filed 01/28/21 Page 25 of 29

at 692. They did not raise a claim for relief under the FARR Act, and the Court explicitly
declined to consider the merits of such a claim. Id. at 703 n.6. So, while the Court in Munaf
required deference to the executive branch based on the facts of that case, it did not address
whether that deference could be overcome by a meritorious FARR Act claim. But see Omar, 646
F.3d at 21 (“[T]he inquiry [pursuant the FARR Act] that Omar asks this Court to undertake in
this habeas case . . . is the precise inquiry that the Supreme Court in Munaf already rejected”).
Second, Munaf affirmatively left open the question of whether the result would change in
“a more extreme case in which the Executive has determined that a detainee is likely to be
tortured but decides to transfer him anyway.” Id. at 702. And Justice Souter, joined by Justices
Ginsburg and Breyer, suggested that he “would extend the caveat to a case in which the
probability of torture [wa]s well documented, even if the Executive fail[ed] to acknowledge it.”
Id. at 706 (Souter, J., concurring). Given these caveats, this court declines to interpret Munaf as
sharply narrowing the Supreme Court’s decision in Boumediene—particularly where the two
cases were decided on the same day.
While Boumediene entitles the Taylors to a “meaningful opportunity” to demonstrate that
they are being detained pursuant to the erroneous application or interpretation of relevant law,
the harder question is what that meaningful opportunity looks like here. The Taylors claim that,
to conduct its review, the court should order the State Department to produce the entire
administrative record on which the Secretary’s decision is based. Pet. Mem. 14 [#57]. But the
Supreme Court has emphasized the importance of judicial restraint in cases with “potential
implications for the foreign relations of the United States.” Sosa, 542 U.S. at 727. There needs to
be an appropriate balance between a level of executive deference that recognizes the executive’s
primary role in foreign relations and constitutionally required judicial review. That balance falls

ATTACHMENT F

Case 4:20-cv-11272-IT Document 81 Filed 01/28/21 Page 26 of 29

well short of the Taylors’ proposal that the court conduct a full review of the Secretary’s
decision.
Instead, the court follows a “rule of limited inquiry” “designed to ensure against blatant
violations of the Secretary’s CAT obligations as implemented by the FARR Act.” See Trinidad y
Garcia, 683 F.3d at 997, 1001 (Berzon, C.J., concurring in part and dissenting in part). Under this
rule of limited inquiry, a petitioner bears the burden of demonstrating through “strong, credible,
and specific evidence” that, notwithstanding the Secretary’s determination to the contrary, the
petitioner is “more likely than not” to be tortured upon extradition. Id. at 1001; see also
Kiyemba, 561 F.3d at 525 (Griffith, C.J., concurring in the judgment in part and dissenting in
part) (“Critical to ensuring the accuracy of the government’s representations is an opportunity for
the detainees to challenge their veracity. The rudimentaries of an adversary proceeding demand
no less”). To establish a prima facie case, the petitioner must demonstrate that “no reasonable
factfinder could find otherwise.” Trinidad y Garcia, 683 F.3d at 1001 (Berzon, C.J., concurring
in part and dissenting in part). If and only if the petitioner makes this showing, the burden shifts
to the Secretary to “submit evidence, should []he so choose and in camera where appropriate,
demonstrating the basis for [his] determination that torture is not more likely than not.” Id.
This “highly deferential, limited” review “minimize[s] the burden on the State
Department” and “protect[s] its legitimate interest in conducting foreign affairs.” Id. It ensures
that, in the vast majority of cases, the reviewing court will not need to conduct a searching
evaluation of the Secretary’s decision to extradite, thereby maintaining a healthy level of
executive deference, while reflecting the fact that “the Executive’s authority to extradite is
neither inherent nor unlimited.” Id. at 995.

ATTACHMENT F

Case 4:20-cv-11272-IT Document 81 Filed 01/28/21 Page 27 of 29

4.

Merits

Having addressed the questions of jurisdiction and scope of review, the court finally turns
to the merits of the Taylors’ claims, and reviews (1) whether the Secretary considered the
Taylors’ claim and determined that it is not “more likely than not” that they will face torture if
extradited to Japan, and, if so, (2) whether the Taylors have demonstrated that no reasonable
factfinder could find other than that they are more likely to face torture than not.
The State Department’s regulations implementing the United States’ obligations under
the Convention Against Torture state that:
In order to constitute torture, an act must be specifically intended to inflict severe
physical or mental pain or suffering and that mental pain or suffering refers to prolonged
mental harm caused by or resulting from:
(i) The intentional infliction or threatened infliction of severe physical pain or
suffering;
(ii) The administration or application, or threatened administration or application, of
mind altering substances or other procedures calculated to disrupt profoundly the
senses or the personality;
(iii) The threat of imminent death; or
(iv) The threat that another person will imminently be subjected to death, severe
physical pain or suffering, or the administration or application of mind altering
substances or other procedures calculated to disrupt profoundly the senses or
personality.
22 C.F.R. § 95.1(b)(2). The regulations go on to explain that “[n]oncompliance with applicable
legal procedural standards does not per se constitute torture” and that “[t]orture is an extreme
form of cruel and inhuman treatment and does not include lesser forms of cruel, inhuman or
degrading treatment or punishment.” 22 C.F.R. §§ 95.1(b)(3), (b)(7).
In accordance with the Convention Against Torture and the procedures set forth in State
Department regulations, the Deputy Secretary determined that the surrender of the Taylors for

ATTACHMENT F

Case 4:20-cv-11272-IT Document 81 Filed 01/28/21 Page 28 of 29

extradition was not more likely than not to result in their being tortured in Japan. Declaration of
Deputy Secretary [#60-1]. The burden therefore shifts to the Taylors to demonstrate that no
reasonable factfinder could have made this determination.
The Taylors have submitted multiple exhibits purporting to demonstrate that they are
“more likely than not” to be tortured if extradited to Japan. Many of these exhibits are news
articles and reports discussing the Japanese criminal justice system’s use of prolonged pretrial
confinement and interrogation to coerce confession. See, e.g., AP News Article [#59-8]; BBC
News Article [#59-9]; Reuters Article [#59-15]. There are also accounts claiming that Japanese
prisons often place detainees in small cells, fail to provide adequate heating, dim the lights but
never fully turn them off, and lack Western-style bedding. See Reuters Article [#59-15]; Gohsn
Declaration [#61-2]; McIntyre Declaration [#61-3].
But although the prison conditions in Japan may be deplorable and although the criminal
procedures that the Taylors may be subjected to may not satisfy American notions of due
process, those allegations do not constitute the “severe physical or mental pain or suffering”
contemplated by the enacting regulations. The Taylors have not claimed that they are more likely
than not to suffer “severe physical pain and suffering,” to be subjected to “procedures calculated
to disrupt profoundly the senses or the personality,” or to be threatened with death. See 22 C.F.R.
§ 95.1(b)(2). They have therefore failed to establish that no reasonable factfinder could find
anything other than that they are more likely than not to be subjected to torture in Japan. This
ends the court’s inquiry.

ATTACHMENT F

Case 4:20-cv-11272-IT Document 81 Filed 01/28/21 Page 29 of 29

IV.

Conclusion

Accordingly, the Taylors’ Second Petition for Writ of Habeas Corpus [#47] is DENIED, and
the Emergency Stay [#49] is lifted.
IT IS SO ORDERED.
January 28, 2021

/s/ Indira Talwani
United States District Judge

ATTACHMENT F

Case 4:20-cv-11272-IT Document 89 Filed 02/01/21 Page 1 of 3

UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
MICHAEL L. TAYLOR and
PETER M. TAYLOR,
Petitioners,
v.
JEROME P. MCDERMOTT, Sheriff,
Norfolk County, Massachusetts, and
JOHN GIBBONS, United States Marshal,
District of Massachusetts,
Respondents.

*
*
*
*
*
*
*
*
*
*
*
*
*

Civil No. 4:20-cv-11272-IT

MEMORANDUM & ORDER
February 1, 2021
TALWANI, D.J.
On January 28, 2021, this court denied Petitioners Michael Taylor and Peter Taylor’s
Second Petition for Writ of Habeas Corpus [#47] and Motion to Amend the Habeas Petition
[#79]. Mem. & Order [#80]; Mem. & Order [#81]. The Taylors promptly appealed, Notice of
Appeal [#83], and have now filed an Emergency Motion to Stay Pending Exercise of Appellate
Rights [#86]. The Taylors ask this court to stay their extradition and/or surrender to Japan
“pending the conclusion of appellate proceedings in the First Circuit (including any en banc
review) and review by the Supreme Court on a petition for a writ of certiorari.” Id. at 15. They
request that in the alternative, if the court denies the requested relief, the court enter a temporary
stay allowing the Taylors to file a motion a motion to stay with the First Circuit and staying their
extradition until the First Circuit rules on such a motion. Id.
In determining whether to grant a stay pending appeal, courts consider the following
factors: “(1) whether the stay applicant has made a strong showing that he is likely to succeed on

ATTACHMENT G

Case 4:20-cv-11272-IT Document 89 Filed 02/01/21 Page 2 of 3

the merits; (2) whether the applicant will be irreparably injured absent a stay; (3) whether
issuance of the stay will substantially injure the other parties interested in the proceeding; and (4)
where the public interest lies.” Nken v. Holder, 556 U.S. 418, 426 (2009) (quoting Hilton v.
Braunskill, 481 U.S. 770, 776 (1987)). The first two factors—likelihood of success and
irreparable harm—are “the most critical,” and when, as here, the government is the opposing
party, the third and fourth factors merge. Id. at 434-35.
Beginning with the first factor, the court finds that the Taylors have not shown a
substantial likelihood of success on the merits. Insofar as the Taylors frame the issue for appeal
as whether their conduct was a crime under Article 103 of the Japanese Penal Code, the court
inquired into Japanese law to the extent permissible and concluded that the government had met
its burden of establishing that the charges against the Taylors, if true, amount to an extraditable
offense under the United States-Japan Treaty on Extradition. Mem. & Order 9-14 [#81]. No legal
authority supports the more piercing inquiry into Japanese law sought by the Taylors. The court
also found that Peter Taylor did not provide cause for his eight-month delay in raising any
challenges to the factual allegations against him and that the Taylors’ Motion to Amend the
Habeas Petition [#79] was therefore untimely. Mem. & Order [#80]. Finally, the court carefully
considered and rejected the Taylors’ challenges to the Secretary of State’s authorization of the
Taylors’ surrender, concluding that the Taylor’s extradition complied with the United States’
treaty obligations under the Convention Against Torture. Mem. & Order 14-28 [#81].
Turning to the second factor, the court finds that the Taylors have not shown that they are
likely to be irreparably injured by this court’s denial of a stay. The government has confirmed
that it will not surrender the Taylors to the Japanese government before February 12, 2021. U.S.

ATTACHMENT G

Case 4:20-cv-11272-IT Document 89 Filed 02/01/21 Page 3 of 3

Opp. 2 [#88]. To the extent that the Taylors seek further judicial review, they have sufficient
time to file a motion to stay with the First Circuit.
Where the Taylors have not shown a likelihood of success on the merits or of irreparable
injury absent a stay, the court need not consider the third and fourth factors. The Emergency
Motion to Stay Pending Exercise of Appellate Rights [#86] is accordingly DENIED.
IT IS SO ORDERED.
February 1, 2021

/s/ Indira Talwani
United States District Judge

ATTACHMENT G

Case: 21-1083

Document: 00117704249

Page: 1

Date Filed: 02/11/2021

Entry ID: 6401129

United States Court of Appeals
For the First Circuit
_____________________
No. 21-1083
MICHAEL L. TAYLOR; PETER MAXWELL TAYLOR,
Petitioners - Appellants,
v.
JEROME P. MCDERMOTT, Sheriff, Norfolk, County, Massachusetts; JOHN GIBBONS,
United States Marshal, District of Massachusetts,
Respondents - Appellees.
__________________
Before
Howard, Chief Judge,
Thompson and Barron, Circuit Judges.
__________________
ORDER OF COURT
Entered: February 11, 2021
Petitioners-appellants have filed an "emergency motion to stay their surrender and
extradition to Japan pending appellate review," which defendants-appellees oppose. Petitionersappellants have failed to demonstrate a likelihood of success on the merits and, more generally,
have failed to demonstrate that a stay is in order. See Nken v. Holder, 556 U.S. 418, 426 (2009)
(stay standard and factors). The motion is denied.

By the Court:
Maria R. Hamilton, Clerk

cc:
Paul V. Kelly, Robert L. Sheketoff, Abbe David Lowell, Daniel Marino, Tillman James Finley,
James P. Ulwick, Stephen W. Hassink, Philip Mirrer-Singer

ATTACHMENT H

Case 4:20-cv-11272-IT Document 57-4 Filed 11/04/20 Page 1 of 28

Exhibit C

ATTACHMENT I

Case 4:20-cv-11272-IT Document 57-4 Filed 11/04/20 Page 2 of 28

IN THE UNITED STATES DISTRICT COURT FOR THE
DISTRICT OF ⅣIASSACHUSETTS
IN TIIE PIATTER OF THE
EXTRADIT10N OF ⅣIICHAEL L.

)
)

TAYLOR

Case

No. 20-ntJ-1069-DLC

Case

No. 20 -mj-107 }-DLC

)

TN THE DIATTER OF TI‐ IE
EXTRADITION OF PETER

TAYLOR

MAXWELL

)

)

DECLARATION OF DR. WILLIAM B. CLEARY
Pursuant to 28 U.S.C. $ 1746. I. William B. Cleary, hereby declare as follows:

1.

My name is Williarn B. Cleary'. I am an adult citizen of the United States. and

practicing attorney and law professor in Japan.

I

a

reside in Hiroshima, Japan. I have lived and

u,orked continuously in Japan since 1993. Prior to that, from October 1983 until June 1990, I

lived in Sapporo, Japan as a Japanese Government (Monbusho) Scholarship recipient.

I

am

making this declaration in connection with the above-captioned, matters, not as an advocate. but
to assist the Court in understanding Japanese criminal law which is relevant to these cases.

2.

I have a bachelor's

degree from the United States lnternational University and a

juris doctor fiom California Westem School of Law. both located in San Diego, California.

I

also hold L.L.M. and Ph.D. degrees in Japanese Public Larv from Hokkaido Universitl, in
Sapporo, Japan. The fbcus of my doctoral work rvas Japanese criminal law and procedure.

3.

Since

April 2008, I have been employed as a Tenured Professor of Comparative

and Foreign Law at Hiroshima Shudo University in Hiroshima. Prior to my tenure at Hiroshima
Shudo University, I served as a professor at Iwate University in Monoka, .lapan. and the College

of International Studies at the University of Tsukuba in Ibaraki, Japan. As a prof'essor, I

have

taught courses in, among other things. Japanese criminal procedure, a subject I have taught for

ATTACHMENT I

」

Case 4:20-cv-11272-IT Document 57-4 Filed 11/04/20 Page 3 of 28

four years. It is to be noted that the subject of criminal procedure is an impoftant subject and is
tested on the Japanese bar examination. I was a tenured associate professor at Iwate University
ar the

time, 2004 to 2008.

4.

In addition to my academic work, I have practiced law as an attorney with various

firms, including Blakemore & Mitsuki in Tokyo and Fried Frank Harris Shriver and Jacobson in
New York. From 2000 to 2002.1 served as a Japanese law expert advising and assisting the U.S.
Forces Japan command at Yokota

Air Force Base. I also previously worked as an Assistant

Attorney General in the Civil Division for the Government of Guam. In that capacity, I served
officer and adviser to several government agencies.

as an administrative hearing

5.

A copy' of

6.

I have been asked to

m1'

cuticulum vitae is attached hereto
revier,v the facts alleged

as Exhibit A.

in these matters and to provide

an

expert legal opinion to assist the Court in understanding relevant provisions of Japanese law,
including how those provisions are understood and interpreted.

7.

Specifically,

against Michael

I

have been asked to render an opinion on whether the allegations

L. Taylor and Peter M. Taylor-who

traveling from Japan to Lebanon-would,
Japanese Penal

if true,

allegedly assisted Carlos Ghosn in

constitute a violation of Article 103 of the

Code. As detailed more fully herein, they do not. [n fact, Mr. Ghosn's act of

breaching the terms of his release in Japan is not an offense under Japanese criminal law.

8.

The Complaints in these matters asseft that the Taylors have "been charged under

Article i03 of the Japanese Penal Code with enabling the

escape

of Carlos Ghosn Bichara

('Ghosn'), who was indicted in Japan for financial crimes and had been released on bail pending
his

trial." (Complaint fl 5.)

9.

With respect to the status of Mr. Ghosn at the time of the alleged events, the

2

ATTACHMENT I

Case 4:20-cv-11272-IT Document 57-4 Filed 11/04/20 Page 4 of 28

Complaints allege specifically as follows:

On April 25, 2019, the Tokyo District Court released Ghosn on bond with
conditions that included, among other things, (i) living in the house in Tokyo
specified by the bail conditions; (ii) when summoned, reporting to a designated
location or notifying the courl, in advance, of the reasons that he is unable to
report; (iii) not hiding or fleeing; (iv) obtaining advance approval for the coufi for
any domestic trips lasting three days or more: and (v) not taking any overseas
trips. By fleeing Japan pending trial, Ghosn violated his bail conditions.
(Complaint ll 7(b).)

10.
"f umping

Violating one's bail conditions. such as those alleged in the Complaint, or

bail." as Mr. Ghosn is alleged to have done. is not a criminal offense in Japan. Articles

97 (titled "Escape") and 98 (titled "Aggravated Escape") of the Japanese Penal Code make it a
criminal

of

nse for a person w,ho is confined on a judge's order (or, under

a subpoena) to

escape, but these statutory provisions apply

detained in a prison,

jail, or other such detention facility.

Article 98, held under

to persons rvho are confined or

These statutes do not

apply-nor

have

they ever been applied-to individuals who are released on bail.
I

l.

The fact that "iumping bail" is not a crime in Japan has been widely recognized

by Japanese officials, legal con'lrnentators, and the Japanese media. In fact, in the wake of Mr.
Ghosn's departure from Japan in December 2A19, there have been a number of articles on this

very subject, discussing the fact that bail jumping is not illegal in Japan and that the Japanese
goverrlment is considering adopting new lau,s that v'ould make bail jumping a criminal offense.

I

have attached as Exhibits B through F examples

of articles on this subject, from both before

and atler Mr. Ghosn's departure. all of which clearly acknowledge that bail jumping is not a
crime in Japan.

12- Article 103-the provision that Japan apparently

alleges that the Taylors

violated-rnakes it a crime to harbor or enable the escape of another person who has either
comrnitted

a crime punishable with a fine or

greater punishment

3

ATTACHMENT I

or has escaped

from

Case 4:20-cv-11272-IT Document 57-4 Filed 11/04/20 Page 5 of 28

confinement.
i

3.

To my knowledge. prior to the arrest warrants issued fbr the Taylors. the Japanese

government has never attempted to apply Article 103 to any situation involving violation of bail

conditions. Article 103 has never been interpreted or understood to encompass such a charge.
Indeed, I have not been able to identify a single prior case where Japanese prosecutors charged a

person (successfully or unsuccessfully) with enabling another person to violate his or her bail
conditions.

14.

Article

103 does not apply

to assisting a person to violate the terms of his bail

conditions. lt only applies to harboring or enabling a person ta escape from either confinement
(that is, like Article 97, confinement within a prison,

jail or other detention facility) or being

arested by the police. or harboring or enabling a person to avoid arrest aJier they have escaped
from confinement.

15.

Article 103 simply does not prohibit assisting someone to violate his

bail

conditions. That is not within the scope of the "escape" which Article 103 prohibits harboring or
enabling, which follows from the fact that bail jumping is itself not prohibited by Article 97 or

any other provision of the Japanese Penal Code. It would be Illogical to criminalize assisting
someone to do something that is not

criminal. It would also be inconsistent with Arlicle 63 of

the Japanese Penal Code, which provides that an accessory to a crime must receive a lesser
punishment than the principal. Simply put,

it would be incongruous for the law to impose

a

criminal punishment on the Taylors for assisting Mr. Ghosn in doing something for which he
could not personally be held criminally liable.

I declare under penalty of perjury under the laws of the United States of America that the
foregoing is true and correct.

4

ATTACHMENT I

Case 4:20-cv-11272-IT Document 57-4 Filed 11/04/20 Page 6 of 28

Executed on May 25,2A20

William B. Cleary

ATTACHMENT I

EXHIBIT

William Bernard Cleary
A

Education

exhibitsticker.com

Case 4:20-cv-11272-IT Document 57-4 Filed 11/04/20 Page 7 of 28
1

Ph.D. (1990 March). Japanese Public Law-Hokkaido University. Three-year course in Japanese Public Law
under the direction of the late Dr. Hiroyuki Nose; major field of study - Japanese criminal procedure, minor
field of study - Japanese civil law and comparative law. Title of dissertation: "The Law of Criminal
Procedure in Contemporary Japan."
LL.M (1987 March). Japanese Public Law-Hokkaido University. Major research: The law of negligence,
both criminal and civil; professional negligence, products liability, and industrial accidents.
J.D (1978 May), California Western School of Law, San Diego, California.
Apprentice for the Appalachian Research and Defense Fund, Charleston, West Virginia; major field of
practice - mental health law and the right to treatment for mental patients in West Virginia.
B.A (1975 June). United States International University, Diversified Major, San Diego, California.
Teaching Experience
Hiroshima Shudo University, Tenured Professor of Comparative and Foreign Law, April 2008 to present.
Subjects taught: Comparative Law, Foreign Law, and American Law (in Japanese).

Iwate University, Tenured Associate Professor of Comparative Law, April 2004 to March
2008.
Subjects taught: Japanese Criminal Procedure (in Japanese).
College of International Studies, University of Tsukuba, Ibaraki, Japan; Visiting Professor of Law, April of
1993 to March 2000. Subjects included Introduction to Law and U.S./Japan Comparative Law. Also taught
Debating, Discussion Seminar 11, International Political Economy, and Human Rights and Refugees, Also,
conducted seminars on Japanese Law, and student advisor for foreign and Japanese students.
Attorney Experience
2000 to 2012 Blakemore & Mitsuki, Tokyo, Japan . Handling international corporate matters, contracts,
securities, securitizations, litigation, and labor related matters.
2000 to 2002 USFJ-Yokota Air Force Base-Japanese Law Expert providing in depth research and
reporting to the Command.
1993 to 2000, Tokyo City Law and Tax Partners; Of Counsel, providing international legal support for a
variety of international business transactions, including: real estate matters, business matters, international
licensing agreements, personnel and litigation issue, and motion picture production matters.
1991-93 Associate Attorney, Klemm, Blair, Sterling and Johnson, Agana, Guam. Specialized in real estate
transactions and construction law matters for several major Japanese construction companies and banks. In
addition, worked as consultant to Sumitomo Construction Company on various corporate matters, including
employment discrimination, recruitment and termination issues, and government relations and public
relations.
1990-91 Associate Attorney, Fried Frank Harris Shriver and Jacobson, N.Y.C. Worked with Japanese
companies on various real estate transactions and development projects in the New York area. Assisted

ATTACHMENT I

Case 4:20-cv-11272-IT Document 57-4 Filed 11/04/20 Page 8 of 28
2

officials at Japan Airlines Inc. concerning negotiating a long term lease with the Port Authority of New York
& New Jersey for a state of the art cargo handling facility at John F. Kennedy International Airport.
1981-83 Assistant-Attorney General, Civil Division, Government of Guam. Served as an administrative
hearing officer and adviser to several government agencies, including the Contractor's Licensing Board and
Civil Service Commission.
1979-81 Legislative Counsel, Kosrae State Legislature, Federated States of Micronesia, and advisor to the
Honourable Gaius F. Nedlic. Duties included the drafting of new legislation dealing with a variety of local
matters, writing committee reports, and organizing the State and National Leadership Conference for the
Federated States of Micronesia.
Attorney Qualifications
California, New York, FSM - Micronesia, & Guam
Public Presentations-Conferences
July 1999, Tokyo, Japan; The Kabuto Yama Case; a comparison of Japanese and
U. S. criminal procedure with particular emphasis on racial discrimination and racial hoax. (In
Japanese)
January 1999, Osaka, Japan, The Kabuto Yama Case; a comparison of Japanese and U.S. criminal procedure
with particular emphasis on the right of prosecutorial appeals. (In Japanese)
November 1997, The 24th International Student Seminar at Inter-University Seminar House (Hachioji,
Tokyo); title of conference, "The Expected Role of the United Nations in the 21st Century," - co-chaired
with Dr. Hideo Sato a three-day discussion seminar focusing on United States - Japan relations in the United
Nations system.
May 1997, Tsukuba Institute, lbaraki, Japan; conducted a three-hour lecture on United States and Japanese
patent law with a detailed comparison of recent trends and landmark cases. (In
Japanese)
June 1996, Sandoz Pharmaceuticals, Ltd., Tsukuba Research Institute; delivered a two-hour presentation
concerning cross-cultural differences to a group of 40-50 physicians, pharmacologists, toxicologist, and
biologists, etc.
August 1996, The European Institute of Japanese Studies, Stockholm, Sweden; Title of conference,
"Japanese Influences in Asia." Invited as a guest participant to deliver a paper entitled, " The Legal System
of Japan and Its Influences in the Region," which described in detail the historical influence of the Japanese
legal systems on other Asian countries, particularly South Korea, Taiwan, and China.
February 1995, Tokyo Bar Association; made a two-hour presentation to a group of Japanese attorneys on
attorney ethics and matters related to attorney discipline in the United States. (In Japanese)
January 1995, Sapporo Bar Association; made a two-hour presentation to a group of Japanese attorneys on
attorney ethics and matters related to attorney discipline in the United States. Included in the presentation
was a discussion of engagement letters, declination letters, fees, and areas of legal specialization. (In
Japanese)
Publications (Articles) -in English

ATTACHMENT I

Case 4:20-cv-11272-IT Document 57-4 Filed 11/04/20 Page 9 of 28
3

1. The Use of GPS Tracking Devices for Criminal Investigations in Contemporary Japan. Hiromira Law
Review, Hiroshima Shudo University (December 2017)
2. The Law of Liability in Contemporary Japan to Third-Parties for Damages Caused by People with
Dementia: A Review of the Tokai JR Supreme Court Case of March 1, 2016. Shudo Hogaku (Shudo
Law Review) Vol. 39 No.2 (February 2017)
3. Parental Kidnapping and Multiculturalism: A Focus on Japan. Shudo Hogaku Vol. 35 No. 2, pp. 127143. February 2013.
4. The Use of Confessions in Contemporary Japan. Shudo Hogaku Vol. 33 No. 1, pp. 39 - 54. September
2010.
5. The Law of Criminal Negligence in Contemporary Japan, Part III. Artes Liberales No. 79, Iwate
University, Faculty of Humanities and Social Sciences, June 2006.
4. The Law of Criminal Negligence in Contemporary Japan, Part II; Artes Liberales No. 78, Iwate
University, Faculty of Humanities and Social Sciences, December 2006.
5. The Law of Criminal Negligence in Contemporary Japan, Part I; Artes Liberales No. 77, Iwate
University, Faculty of Humanities and Social Sciences, December 2005.
6. The Law of Double Jeopardy in Contemporary Japan; Artes Liberales No. 76, Iwate University,
Faculty of Humanities and Social Sciences, June 2005.
7. The Law of Entrapment in Contemporary Japan, Part I; Artes Liberales No. 75, Iwate University,
Faculty of Humanities and Social Sciences, December 2004.
8. Lawyers’ Ethics and the Mass Media, August 1, 2003, (Publication in Memorial of Dr. Hiroyuki Nose);
Shinyama Publishing, ISBN: 4797230711
9. Police, Prosecution, and Violence in Contemporary Japan, International Criminal Justice Review,
Volume 13, 2003, pp. 181-186.
10. The Law of Criminal Procedure in Contemporary Japan Part III, Hokkaido University Law Review,
January 1991, Volume 42 No. 1. Pp. 360-404 December 1991.
11. The Law of Criminal Procedure in Contemporary Japan Part II, Hokkaido University Law Review,
Volume 41 No. 4. March 1991.
12. The Law of Criminal Procedure in Contemporary Japan Part I. Hokkaido University Law Review,
November 1991, Volume 41- 3. Pp. 454 – 512. January 1991.
13. Criminal Investigation in Japan, California Western Law Review, Volume 26, Number 1, 1989-1990.
14. Problems with U.S. Jury System and the Americanization of Japan, Comparative Law Journal, Volume
56, December 1994.
Publications-in Japanese
1. Attorneys and the Mass Media ("bengonin no media e no ikenhyomei wa douarubekika?') Quarterly
Keiji-Bengo, No. 3 1, Autumn. 2002, p. 128.
2. Translation of "Death Row - AIDS is Turning a Prison Term into a Potential Death Sentence," by
Harmeen Rowe, published by Ushio, October 1988, pp. 136-141.
3. Translation of "Police Taping of Investigative Interviews," published in Hanrei Jiho, August 11, 1986,
No. 1195.
4. Translation of "Euthanasia in the Netherlands," published in the Sapporo Gakuin Law Review, February
1995, Volume 11-2.
Chapters in Books
1. Title of Book: Women in Law, published by Greenwood Press 1996, Edited by Rebecca Mae Salokar and
Mary L. Volcansek. Contributed the chapter on Takako Doi, an account of her life and accomplishments.

ATTACHMENT I

Case 4:20-cv-11272-IT Document 57-4 Filed 11/04/20 Page 10 of 28
4

2. Title of Book: Constitutional Systems in Late Twentieth Century Asia, edited by Lawrence W. Beer,
published by University of Washington Press, 1992. A translation of Professor Nobuyoshi Ashibe's
manuscript entitled, "The United States Constitution and Japan's Constitutional Law."
Languages: Japanese

ATTACHMENT I

Case 4:20-cv-11272-IT Document 57-4 Filed 11/04/20 Page 11 of 28

ALL GENRES

EXHIBIT

7:56 pm, June 25, 2019

B

The Yomiuri Shimbun

The latest case of a fugitive criminal must be criticized as extremely deplorable. The incident was the fault
of the prosecution.
Despite his sentence of imprisonment having been finalized after he was released on bail, the man in
question fled to avoid being jailed. The fugitive was arrested by the Yokohama District Public Prosecutors
Office on suspicion of obstructing the discharge of an official duty. It took as many as four days to
apprehend him after his flight.
While he was on the run in Kanagawa Prefecture, public elementary and junior high schools run by local
governments in areas surrounding the scene of his escape were forced to suspend classes for two days. The
incident also affected the day-to-day lives of local residents, as shown by the fact that weekend events were
canceled.
Public prosecutors must bear a grave responsibility for having caused anxiety among community residents.
They should seriously reflect on their mistake.
After his unsuspended prison sentence was finalized in February, the man did not abide by the
prosecution’s demand that he present himself. On one occasion, he attempted to use violence against
personnel from the district prosecutors office when they came to imprison him.
Nevertheless, they did not wear knife-proof vests when they attempted to imprison him, and police officers
accompanying them had no guns with them. It is safe to say that such a lenient attitude allowed the knifewielding man to escape.
The prosecution’s response to the situation following his flight was not at all timely, either.
More than three hours after the man’s escape, the district prosecutors office informed local governments in
the area. There were also delays in the police authorities’ emergency measure of deploying officers, which
happened during a period of time that coincided with the hour when children go home from school. Local
residents had every reason to raise their voices in anger.
Review legislation
There is also room for controversy over the appropriateness of a court decision to release the man on bail.
The man had been charged with such crimes as theft, bodily injury and a violation of the Stimulants
Control Law. During his trial in the court of first instance, the man was released on bail. He was given an
unsuspended prison sentence and was taken into custody. However, he was released on bail again after
appealing to a higher court.

ATTACHMENT I

exhibitsticker.com

Evident flaws in system for releasing offenders on bail before prison

Case 4:20-cv-11272-IT Document 57-4 Filed 11/04/20 Page 12 of 28
From the standpoint of defending their rights, there is a growing tendency to flexibly permit defendants to
be released on bail. Unnecessarily detaining defendants must be avoided as a matter of course. However,
courts should judge whether each defendant deserves to be released on bail by closely examining the
possibility of them escaping or destroying evidence.
This latest case has illustrated institutional problems related to the action of imprisoning people whose
unsuspended prison sentences have been confirmed. As of the end of last year, there were a total of 26
people who had fled to avoid imprisonment.
The administrative work aimed at sending those found guilty to prison is based on the view that human
nature is fundamentally good — that is, it is thought they will abide by demands for them to present
themselves. Even if they go missing, it is not compulsory to inspect related matters such as records of their
incoming and outgoing mobile phone calls.
If defendants or convicted prisoners run away from such institutions as detention houses and prisons, they
are charged with the crime of escape. However, this does not apply to offenders who have escaped before
being imprisoned. There is no penalty for those who have not abided by a demand to present themselves,
either. All of these points can be described as flaws in the legislation.
If offenders whose unsuspended prison sentences have been finalized can avoid the execution of their
penalties, the foundation of criminal justice will be shaken. The Supreme Public Prosecutors Office has
established an inspection team with a view to preventing a repeat of the incident. The team should examine
whether the current system has any problems that must be reviewed.
(From The Yomiuri Shimbun, June 25, 2019)

Facebook

Twitter

Like 0

Share

ツイート

Google+

Hatena Bookmark

0

Evernote

linkedIn
Share

ATTACHMENT I

Case 4:20-cv-11272-IT Document 57-4 Filed 11/04/20 Page 13 of 28
Related
China’s bid for greater influence in South Pacific a cause for concern
Universities should focus on boosting research quality, not global ranking
Deciding appropriate share for hosting U.S. bases needs calm talks
Restoration work on castles provides source of pride, promotes tourism

Sponsored Contents
Man Who Predicted Trump's
Win Makes Another
Prediction

New 750mg CBD Gummy
5Xs Better Than Hemp
(health-repair.com)

(betterlyfe.news)

Doing This Every Morning
Can Snap Back Sagging Skin
(No Creams Needed)

[Pics] Pole Vaulter Allison
Stokke Years After The Photo
That Made Her Famous

(innerskinresearch.com)

(New Arena)

Toenail Fungus? Try This
Tonight

People Born 1948-1979 With
No Life Insurance Are In for
A Treat This May

(Fungus Eliminator)

(Comparisons.org)
Recommended by

Food
Travel
Voices from Japan
Asia News

ATTACHMENT I

Case 4:20-cv-11272-IT Document 57-4 Filed 11/04/20 Page 14 of 28

Culture & Lifestyle
Experiencing Japan
The Japan News staff share their experiences

Manga & Anime

Troubleshooter
Giving advice for over a century

Reviews
Gift Suggestions
Language Learning

Opinion & Analysis
Comic Strip: Neko Pitcher
Tokyo 2020

Weather

ATTACHMENT I

Case 4:20-cv-11272-IT Document 57-4 Filed 11/04/20 Page 15 of 28
Tokyo 12:00 pm

Customize

26.2°C
Tue

Wed

Thu

Fri

23°

24°

26°

26°

17.9°

16°

17°

16°

See the history of
WASEDA University
As it is today

Capturing the age,
focusing on the future
Chuo University

SCROLL TO TOP

Web Site Policies
Web Site Policies Top
Privacy Policy Statement
Copyrights
Linking Policy
Contact us
Media Data
The Yomiuri Shimbun
The Japan News
Advertising with The Japan News Website
About Us
Subscribe Newspaper
Connect
Facebook
Twitter (English)
Twitter (Japanese)
Twitter (TheJapanNews Editor)
Links
The Japan News Partners

ATTACHMENT I

Case 4:20-cv-11272-IT Document 57-4 Filed 11/04/20 Page 16 of 28
Waseda Online
Chuo Online
Nippon TV
YTV
ANN
YOMIURI College of Tokyo
YOMIURI COLLEGE OF CAR MECHANIC
© The Yomiuri Shimbun

ATTACHMENT I

5/24/2020

Ghosn with the Document
wind: Ministry to57-4
tighten laws
to nix11/04/20
bail jumps：The
Asahi Shimbun
Case 4:20-cv-11272-IT
Filed
Page
17 of 28

Ghosn with the wind: Ministry to tighten laws to nix
bail jumps
By HIROYOSHI ITABASHI/ Staff Writer

January 8, 2020 at 18:10 JST

The clandestine escape from Japan by Carlos
Ghosn was a factor in a decision by the Justice
Ministry to accelerate efforts to prevent bail
jumping by making it easier to investigate and
charge escapees.
The beleaguered former Nissan Motor Co. chief
slipped out of his monitored home in Tokyo on
Dec. 29 and fled to Lebanon by private jet,
apparently by hiding in oversized luggage.
A security camera captures the moment a woman
on bail flees in a car to avoid being taken into
custody and the car hits a prosecutors office official
in Kishiwada, Osaka Prefecture, in October.
(Provided by a resident)

It was an embarrassing cap to a string of bailjumping incidents last year in Osaka and
Kanagawa prefectures.

Justice Minister Masako Mori on Jan. 7
indicated planned legal reforms that would
expand the application of "crime of escape"
under the Criminal Law to accused individuals out on bail.
Under current law, "crime of escape" only applies to jail or detention facility escapees, not those
who flee while out on bail.
Mori said the ministry will soon ask the Legislative Council, an advisory panel to the justice
minister, to discuss the issue and submit proposals. The ministry plans to submit a bill to revise
relevant laws to the Diet based on the discussions.

In one case last June, a man in Kanagawa Prefecture who received a jail sentence while on bail but
had not been taken into custody for more than four months, threatened officials of the prosecutors
office with a kitchen knife after they arrived at his home and fled in a car.
EXHIBIT
Ghosn’s dramatic escape also prompted the ministry to strengthen measures to monitor
defendants released on bail.

C

The Legislative Council is expected to discuss ways to grant authority to law enforcement officials
to investigate bail jumpers, search their homes and confiscate call logs.
www.asahi.com/ajw/articles/AJ202001080059.html

ATTACHMENT I

1/2

exhibitsticker.com

Last year marked a series of getaways by defendants whose prison terms were finalized or bail was
forfeited while they were free on bail.

5/24/2020

Ghosn with the Document
wind: Ministry to57-4
tighten laws
to nix11/04/20
bail jumps：The
Asahi Shimbun
Case 4:20-cv-11272-IT
Filed
Page
18 of 28

The council is also expected to consider a policy to make such defendants wear a global positioning
system (GPS) device.
Ghosn was awaiting trial over alleged financial misconduct at the time of his disappearance.
Under the Code of Criminal Procedure, defendants are not required to appear for an appeals court
decision, making it impossible for prosecutors to immediately detain a defendant even if a prison
sentence is served.
Figures show that as of the end of 2018, 26 individuals fled from authorities after their prison
terms were finalized while they were out on bail.
In light of this, the Justice Ministry plans to make it obligatory for defendants to be present for an
appeals court decision.
Copyright © The Asahi Shimbun Company. All rights reserved. No reproduction or republication without written permission.

www.asahi.com/ajw/articles/AJ202001080059.html

ATTACHMENT I

2/2

Case 4:20-cv-11272-IT Document 57-4 Filed 11/04/20 Page 19 of 28

Japan :Ministry eyes ways to stop bail jumpers
by The Yomiuri Shimbun
TOKYO (The Japan News/ANN) - Following a series of escapes by defendants and others while out on bail, the Justice Ministry plans to strengthen
measures to prevent such flights, The Yomiuri Shimbun has learned.
Following a series of escapes by defendants and others while out on bail, the Justice Ministry plans to strengthen measures to prevent such flights, The Yomiuri
Shimbun has learned.
According to sources, the ministry is considering expanding the scope of so-called crimes of escape, which currently apply only to people who flee from jail and other
facilities, and establishing such measures as penalties for accused persons who refuse to obey court summons while out on bail.
The ministry will consult in February at the earliest with the Legislative Council, an advisory body to the justice minister, about revisions to laws including the Penal
Code.
Under the Penal Code, “crimes of escape” apply only to the escapes of suspects, defendants and others who are confined in penal facilities such as jails and detention
facilities at police stations. The penalty is a maximum of one year in jail.
Since people who run away while out on bail cannot be prosecuted for their crimes, the Legislative Council will apparently discuss the application of the crime of
escape to such cases.
In addition, the Criminal Procedure Code stipulates that a person who is summoned by the court as a witness but does not appear in court without a justifiable reason
will be punished by imprisonment for up to a year or other penalties. However, there are no penalties for defendants and others who do not respond to court summons
while out on bail.
The Legislative Council is expected to discuss the revision of the Criminal Procedure Code to establish similar penalties for defendants out on bail, the sources said.
On Dec. 31, it was learned that former Nissan Motor Co. Chairman Carlos Ghosn, 65, had fled Japan. If the laws are revised as planned, crimes of escape will apply to
cases like that of Ghosn, who had been out on bail.
However, it is difficult to physically detain a foreigner who has fled overseas. Some say accused persons should be required to wear global positioning system (GPS)
devices, in order to strengthen the monitoring of their movements after being released on bail. The Legislative Council likely will consider such issues.
In recent years, the courts have tended to actively release accused persons on bail. According to the Supreme Court, the percentage of cases in which an accused
person was granted bail by a lower court before the ruling increased from 14% in 2008 to 32% in 2018.
The number of cases in which defendants out on bail were indicted in other cases has been also on the rise. According to a white paper on crime, the number of such

EXHIBIT

ATTACHMENT I

D

exhibitsticker.com

cases increased from 102 in 2008 to 258 in 2018, an increase of about 2.5 times.

Case 4:20-cv-11272-IT Document 57-4 Filed 11/04/20 Page 20 of 28
In Kanagawa Prefecture, a man whose prison sentence was finalized after being released on bail swung a kitchen knife at officials of the Yokohama District Public
Prosecutor’s Office, who had gone to detain him, and escaped in a car in June last year. After that case, the Justice Ministry began considering the necessity to revise
relevant laws.

Photos
No photos has been attached.

ATTACHMENT I

Case 4:20-cv-11272-IT Document 57-4 Filed 11/04/20 Page 21 of 28

Japan to make escapes by defendants
on bail punishable

EXHIBIT
E

Japan’s Justice Minister Masako Mori speaks during a press conference on former auto tycoon Carlos Ghosn after he fled Japan to avoid a
trial, in Tokyo on January 6, 2020. (AFP)

Short Url:

https://arab.news/czhrm

TOKYO: Japan will make escapes by defendants out on bail punishable following a
series of such getaways, notably by former Nissan Motor Co. Chairman Carlos Ghosn,
informed sources said Tuesday.
The Justice Ministry is considering revising the Penal Code to expand the scope of the
crime of escape and take other measures. It plans to consult the Legislative Council,
which advises the justice minister, as early as next month.

ATTACHMENT I

exhibitsticker.com

07 Jan 2020

Case 4:20-cv-11272-IT Document 57-4 Filed 11/04/20 Page 22 of 28
“It’s extremely important to prevent escapes by defendants out on bail,” Justice Minister

Masako Mori told a press conference. “We’ll consider so we can consult the Legislative
Council as early as possible.”
The crime of escape covers prison inmates as well as detained defendants and suspects.
A violator faces a prison term of up to a year.
But defendants out on bail, such as international fugitive Ghosn, are not subject to the
punishment.
The council will discuss whether it is appropriate for those cases to be covered, the
sources said.
Plans to oblige defendants to wear Global Positioning System tracking devices while on
bail are also expected to be discussed. Other expected topics include how to monitor
defendants fitted with such devices and how to protect their privacy.
Also on Tuesday, the ruling Liberal Democratic Party held a joint meeting of its judicial
and foreign affairs divisions and discussed responses to Ghosn’s departure to Lebanon.
According to a participant, some lawmakers called for using GPS devices.
The ministry was considering preventive measures after a man on bail escaped in
Kanagawa Prefecture, south of Tokyo, after his prison sentence became final last year
and defendants fled in Osaka Prefecture, western Japan, after seeing their bail revoked.
Jiji Press

ATTACHMENT I

Case 4:20-cv-11272-IT Document 57-4 Filed 11/04/20 Page 23 of 28

ALL GENRES

EXHIBIT

7:26 pm, August 08, 2019

F

The Yomiuri Shimbun

exhibitsticker.com

Prosecution measures insufficient for preventing recurrence of escapes

It can be said that the prosecution as an organization was not up to the task of jailing a defendant whose
sentence of imprisonment had been finalized after being released on bail.
The prosecution has compiled a report that examines a case in which a man who, in attempting to avoid
being jailed, fled with a knife from his house in Kanagawa Prefecture.
He did not abide by the prosecution’s repeated demands that he present himself and was expected to be
resistant to the prosecution. However, the Yokohama District Public Prosecutors Office did not sufficiently
consider assigning personnel and also did not make any arrangements with the police. Despite receiving
reports of his flight, the prosecution delayed informing local governments, believing that “the police would
decide” on the announcement of his escape.
It is reasonable that the prosecution’s report summarized the incident as being caused by insufficient
measures on the part of the prosecution and its lack of risk awareness.
To prevent the recurrence of such an incident, the Supreme Public Prosecutors Office cited steps such as
preparing and improving manuals and equipment for when the prosecution imprisons a defendant, and
establishing a liaison system with local governments. These are all basic measures that the prosecution
should already have addressed. It is unlikely that it will really be able to prevent such an incident occurring
only with these countermeasures.
In the background of this escape is an increasing number of defendants being released on bail.
The number of defendants — who, like the man in this case, were released on bail until a ruling in the court
of second instance was handed down, after being given an unsuspended prison sentence in the court of first
instance — was 546 in 2013. But the figure was more than double that in 2018 at 1,109. It included
defendants in such serious cases as murders and robberies resulting in bodily injury.
Review conventional steps
There is a view that there is a higher risk of flight if a defendant who has been given an unsuspended prison
sentence in the court of first instance is released on bail after appealing to a higher court. As a defendant is
not obliged to appear in the court of second instance, unlike the court of first instance, it is expected that he
or she could escape and not appear on the date of the ruling.
Courts should more carefully decide on the appropriateness of and conditions for whether a defendant who
has been given an unsuspended prison sentence is released on bail. It should also consider obliging a
defendant to appear on the date of a ruling in the court of second instance, and make it possible to jail the
defendant on the spot when they are given an unsuspended prison sentence.

ATTACHMENT I

Case 4:20-cv-11272-IT Document 57-4 Filed 11/04/20 Page 24 of 28
It is problematic that it takes too much time to jail a defendant after they are given an unsuspended prison
sentence. There were 60 defendants in 2018 who were not jailed until more than three months after their
sentences of imprisonment were finalized in a higher court. There were also not a few former defendants
who were temporarily missing for reasons such as fleeing overseas.
The longer the period after finalizing a sentence of imprisonment is, the smaller the effect of reflection on
their crime and the higher the hurdles for imprisonment become. The prosecution must make efforts to
swiftly bring defendants into custody.
There is a flaw in the legislation in that the crime of escape in the Criminal Code, which is intended for
convicted prisoners and others, is not applied to defendants released on bail.
Some states in the United States and Canada make it obligatory, as a condition for release on bail, for the
defendant to wear a global positioning system tracking device. In order to prevent escapes, it is hoped that
effective steps will be made with reference to overseas examples.
(From The Yomiuri Shimbun, Aug. 8, 2019)

Facebook

Like 5

Share

ツイート

Twitter

Google+

Hatena Bookmark

0

Evernote

linkedIn
Share

Related
China’s bid for greater influence in South Pacific a cause for concern
Universities should focus on boosting research quality, not global ranking
Deciding appropriate share for hosting U.S. bases needs calm talks
Restoration work on castles provides source of pride, promotes tourism

ATTACHMENT I

Case 4:20-cv-11272-IT Document 57-4 Filed 11/04/20 Page 25 of 28

Sponsored Contents
Man Who Predicted Trump's
Win Makes Another
Prediction

If You Have Toenail Fungus,
Do This Immediately
(Genius!)

(betterlyfe.news)

(Clear Nail Plus)

New 750mg CBD Gummy
5Xs Better Than Hemp

People Born 1948-1979 With
No Life Insurance Are In for
A Treat This May

(health-repair.com)

(Comparisons.org)

[Pics] Demolition Workers
Made A Historic Discovery
While Knocking Down A
House

[Pics] When Engineers
Drained The Niagara Falls In
1969, They Revealed A
Gruesome Sight

(Magellan Times)

(Maternity Week)
Recommended by

Food
Travel
Voices from Japan
Asia News

Culture & Lifestyle

ATTACHMENT I

Case 4:20-cv-11272-IT Document 57-4 Filed 11/04/20 Page 26 of 28
Experiencing Japan
The Japan News staff share their experiences

Manga & Anime

Troubleshooter
Giving advice for over a century

Reviews
Gift Suggestions
Language Learning

Opinion & Analysis
Comic Strip: Neko Pitcher
Tokyo 2020

Weather
Tokyo 03:00 pm

Customize

25.6°C
Tue

Wed

Thu

ATTACHMENT I

Fri

Case 4:20-cv-11272-IT Document 57-4 Filed 11/04/20 Page 27 of 28

23°
17.9°

24°
16°

26°
17°

See the history of
WASEDA University
As it is today

Capturing the age,
focusing on the future
Chuo University

SCROLL TO TOP

Web Site Policies
Web Site Policies Top
Privacy Policy Statement
Copyrights
Linking Policy
Contact us
Media Data
The Yomiuri Shimbun
The Japan News
Advertising with The Japan News Website
About Us
Subscribe Newspaper
Connect
Facebook
Twitter (English)
Twitter (Japanese)
Twitter (TheJapanNews Editor)
Links
The Japan News Partners
Waseda Online
Chuo Online
Nippon TV
YTV
ANN
YOMIURI College of Tokyo

ATTACHMENT I

26°
16°

Case 4:20-cv-11272-IT Document 57-4 Filed 11/04/20 Page 28 of 28
YOMIURI COLLEGE OF CAR MECHANIC
© The Yomiuri Shimbun

ATTACHMENT I

Case 4:20-cv-11272-IT Document 57-5 Filed 11/04/20 Page 1 of 5

Exhibit D

ATTACHMENT J

Case 4:20-cv-11272-IT Document 57-5 Filed 11/04/20 Page 2 of 5

IN THE UNITED STATES DISTRICT COURT FOR THE
DISTRICT OF ⅣIASSACHUSETTS
IN TIEE NIIATTER OF THE

EXTRADITION OF MICI‐ IAEL L.

Case

No. 20-mj- 1 069-DLC

N THE NIATTER OF THE

Case

No. 20-mj-107 }-DLC

TAYLOR

EXTRADIT10N OF PETER MAXWELL
TAYLOR
SUPPLEMENTAL DECLARATION OF DR. WILLIAM B. CLEARY
Pursuant to 28 U.S.C.

l.

I

1746, I, William B. Cleary. hr:reby declare as fbllows:

I write this statement to supplement my earlier declaration, dated May 25.

2020 (ECF No.

l8) and in

response

to the declaration of Public Prosecutor Naoki

Watanabe, which the Government offered in opposition to Michael and Peter Taylor's

motion to quash their arrest warrants or. alternatively. to be released from detention
during the extradition proceedings against them (ECF No. 22-2 ("Watanabe Decl.")).

2.

My only objective in

submitting

my declarations is to share my

understanding of Japanese law with the Court. I recognize that this is an important and
complicated case, and
issues

at stake.

If

I

want to assist the Courl in understanding the complexity of the

my more than 30 years of experience and education dealing with

Japanese law can be helpful to the Court,

3.

I am honored to help.

The Government's opposition brief and Mr. Watanabe's supporting

declaration raise important issues under Japanese criminal law that call into question the

legitimacy of the charges against the Taylors under Article i03 of the Japanese Penal

ATTACHMENT J

Case 4:20-cv-11272-IT Document 57-5 Filed 11/04/20 Page 3 of 5

Code.

4.

Mr.

Watanabe's declaration confirms what

I

stated

in my prior

declaration: that Article 103 has never been used to prosecute someone for assisting
another in jumping

bail. Rather, in support of his contention that Article 103 applies to

the Taylors. Mr. Watanabe cites three cases that are f-actually dissimilar to the case at bar.

(&e

Watanabe Decl.
a.

tTtT

9, l2 (citing cases).)

In Judgment of Toki,'o District Court. February' 16. 1999, hanjivol. 1000.

p. 325 (Watanabe Decl.fl 9), the defendants-tnembers of a cult group that
used sarin poisonous gas to

kill people-were convicted

under

because they created fabricated documents that enabled their

Article

103

fellow gang

members to escape arrest.
b.

In Judgment of Supreme Court, March 17, 1960, Kei-Shu vol. 14, No. 3" p.
351 (Watanabe Decl.fl 9), the defendant violated Article 103 by helping
his friend evade arrest.

c.

In Judgment of Osaka District Court. Ma,v I 0. 200() (Watanabe Decl. fl l2).
which the Government features in its opposition brief (ECF No. 22 al2829). the defendant was convicted under Article 103 for aiding a fugitive.

At the time of the defendant's crime. the individual he was convicted of
assisting had his bail revoked and therefore n'as sutrject to amest.

5.

Contrary to what the Government submits, the Taylors' prosecution is not

"supported by Japanese caselaw." The cases cited by the Government have nothing to do

with bailjumping. (ECF No. 22 at28.) Instead, they stand for the proposition that the

ATTACHMENT J

Case 4:20-cv-11272-IT Document 57-5 Filed 11/04/20 Page 4 of 5

first part of Article 103-i.e., the clause which Mr. Watanabe assefts the Taylors have
violated-applies to instances where one enables another person to escape apprehension
by law enforcement. To my knowledge. Article 103 has never been used to prosecute
assisting another in the act of jumping

bail-and apparently Mr.

Watanabe is not aware

of such an instance either.

6.

As I rvrote in

ml prior declaration. this is not mere happenstance. Rather,

Japan does not criminalize bail
charge someone under

jumping. It is difficult to comprehend how Japan can

Article 103 for assisting someone with engaging in conduct that

is

itself not a crime. Any suggestion that charging the Taylors under Article 103 represents
a

typical application of the statute is wrong.

7.

I

am not the only expert in Japanese criminal lalv that believes that the

Taylors have not violated Article 103. As recently reported in Bloomberg News, a
professor

of criminal law at Hitotsubashi University named Yunhai Wang similarly

concluded that "Helping someone jump bail isn't a crime in Japan." See, e.9., Robert

Burnson, Ghosn Alleged Escape Accomplices Deny Comntitting

a Crime^

Bloomberg

Law (June 9, 2020), https://news.bloomberglaw.corn/w-hite-collar-and-criminallaw/ghosn-alleged-escape-accomplices-deny-committing-a-crime-2.

publication identified another person,

a former Japanese

Gohara, who also doubts the legitimacy of the

8.

Article

That

same

prosecutor named Nobuo

103 ch;rrges against the Taylors. 1d

The Government writes, "Notably, the Taylors have not cited any

where a Japanese court held that Article I03 cannot apply

to situations

defendant enabled the scape of a person who had been released on

ATTACHMENT J

case

where the

bail." (ECF No.22 at

Case 4:20-cv-11272-IT Document 57-5 Filed 11/04/20 Page 5 of 5

29.)That iS for good reason.As detailed above,asね r as I(alld,OStensibly,Mr.
Watanabe)kl10W,the iSsuc has nevcr been litigated一 precisely bccause thiS prosecution
is unprccedentcd.

l declare under penalty ofpettury underthe laws ofthc United States ofAmerica
that thcお regoing is truc and correct to thc bcst ofrny knowledge and bclici

Executed On June生 ,2020

William B.Clcaw

4

ATTACHMENT J

Case 4:20-cv-11272-IT Document 57-6 Filed 11/04/20 Page 1 of 5

Exhibit E

ATTACHMENT K

Case 4:20-cv-11272-IT Document 57-6 Filed 11/04/20 Page 2 of 5

IN THE UNITED STATES DISTRICT COURT FOR TⅡ E
DISTRICT OF ⅣIASSACHUSETTS
IN THE MATTER OF TI― IE
EXTRADIT10N OF MICI‐ IAEL L.

)
)

TAYLOR

Case

No. 20-mj-1069-DLC

Case

No. 20-mj-107 O-DLC

)

IN THE MATTER OF THE
EXTRADITION OF PETER MAXWELL

TAYLOR

)

SECOND SUPPLEMENTAL DECLARATION OF DR. WILLIAM B. CLEARY
Pursuant to 28 U.S.C. $ 1746, I.

l.

William B. Cleary, hereby declare as follows:

My name is William B. Cleary and I provide this declaration as a supplement to

my two previous declarations, dated May 25,2020 and.lune 20, 2020.

2.

I reiterate my great respect tbr the.lapanese legal system and my desire not to be

an advocate fbr. or against, any party in these matters.

I

simply want to assist the Coutt to

understand the .lapanese laws, legal principles and cases that bear upon the issues presented

b1,

Japan's request to extradite the Taylors.

3.
charge of any

Initially, I note that the issuance of an arrest warrant does not constitute a fbrmal

kind.

Instead, an arrest warrant is parl of the investigative stage of a matter. An

individual does not become a "defendant" until he or she is indi,:ted, and it is that indictment that
serves as the formal charge.

In the Japanese system, it is the indictment that serves to let the

defendant know fbr what crime he or she is being charged, and the facts which the government

intends to prove in supporl of that charge. As

I

understand it, no indictment has been issued

against the Taylors. As a result, under the Japanese legal system" the Taylors have not yet been

charged with any oflenses and are not yet even referred to res "defendants" in the Japanese
system.

ATTACHMENT K

Case 4:20-cv-11272-IT Document 57-6 Filed 11/04/20 Page 3 of 5

4.

I ftlrther、vish to clarifv the structurc and terlninology employcd in Article 103 of

the Japanesc Penal Code so as to explain my previously¨ statcd opinion thatノ ヘrticle 1 03 silnply
rarrant allege by the Taylors.

docs not prohibitthe conductthat Japan's Requests lor Arrestヽ ヽ
5.

bnse

Article 103 has bcen translatcd into English as,providing for a crilllinal o■

、
vhen onè̀harbors or enables the esclpe Of another person、

vho has cither corllinitted a crilne

punishable 、
vith a flne or greater punishment or has escaped from conflnement.'' While this
English translation uses two verbs― 一 harbors or enables the escape of another''一 ―to describc the
operat市 e conduct,the o五 」nd Japanese tcxt inね ct
This、 vord,

employs a inJe verb― 蔵 匿 ,or

ノ
."
η′
つ

ブ
77pノ ,''is translated to lllean,altcrnatively,̀̀harbors or enables the escape ofanotherメ

but it is a single concept that describes working against la、

v enfbrcement authorities' active

pursuit ofa crilllinal to arrest hilll.

6.

VVhile it is translatcd using the samc English、 vord̀̀escapc,''″ ρノcarries、 vith it a

scpartte and distinct meaning,om the wordた

Li走 ,or

ゎsθ .''The WOrd̀̀toso"is the tem used

in Article 97 and itis the terrn used in the latter pa■ of Articlc 1 03,、 vhich is translated to English
as t̀has escaped fl・

om conincment." This、 vord, toso,''has a very speciflc meaning in that it

rcfers to escape from a place of physical conflnement,such as ajail,prison or detention centcr.

7. The Japanese waFants for thc Taylors'arrests do not themselvcs idcndサ
offense or offenscs for which the Taylors' arrests arc authoriltted.

the

Instead, they retrence the

Requcsts lor 2へ Fest Warrant. Thc Requests lor2へ rrestヽ Varrant in turn begin、 vith a declaration,

as translated to English,that a warrant is requested̀̀on the allcged harboring Of crirninals and

acccssoryship ofviolation ofthc lmlnigration COntrol and Rcfugcc Rccognition Act(A■ icic
2511)caSe."Thc oHgind Japanese text thtt is transiated to

71,

harboring ofcnminds"is犯 人 蔵 匿

which is the title of Article 103 though the Requests do not cite to Article 103. In any event,

ATTACHMENT K

,

Case 4:20-cv-11272-IT Document 57-6 Filed 11/04/20 Page 4 of 5

2へ

nnex 3 1o the Rcqucsts br Arrcst Warant,which purports to dcscribc the aHcgedね cts of the

c五 mc,desc」 bes

thc actions ofthc Taylors with respect to Mr.Ghosn not with the vcrb蔵

ノ
77pボ but rather using the word逃 走 ,or

匿 ,or

ゎsθ ."Therebre,as described in the Requests br

Arrest Warrant,it is clcarly alleged that the Taylors collllllitted a crirne by assisting or enabling

Mr.Ghosn to逃 走 ,or ゎsο ,"with the restHctions iom which Mr.Ghosn is cscaping being
specincaHy identifled as the conditions under、 vhich he、 vas bailed.

8. In his dedattion,Mr.Watanabe acknowledges that thc word逃 走 ,or
̀̀has the salne concepts as̀escaped li・ om coninement'''and thtls

is irrelevant to the conccpt of

̀escape'uscd iǹenables the escape'in Aricle 103,which is an English tralasiadon of
(̀̀′ 4θ

ゎsθ ,"

蔵 匿"

'').'' T agree with this statemcnt.But thc problem is thtt the Requcsts ftDr Arrcst Warrant
ノ

assert thtt the Taylors allegedly commited a c●

me by enabling the逃 走 ,or

ゎsθ ,"of Mr.

Ghosn in reference to his bail conditions. This一 二thc speciflc conduct alleged to constitute the
crillle一

一does not constitute a violation ofArticle 1 03.
9.

̲As l explained in my previous declarations, while there is one case where an

individual、 vas prosecutcd for assisting a dcindalnt to avoid arrest a■ erlhis bail had been revoked

(Judgment Of Osaka District Court,May 10,2000),there is no prior instance in which Japan has

ever even tttempted to charge anyone under Anicle lo3(or any Other pro宙 sion)お r assisting
someone to violate their bail conditions.

10.
蔵 匿

,or

Furthcr,even if the Requests for Arrestヽ Varrants had used the verb harborin2‑―

"一
′
η ノ

tO dCSC五 be the Taylors'actions,that Jso would be an inaccuratc use of the

WOrd(as employed in Aricle 103)becauSe there is no allegation(and nO evidence)that law
enftDrccment authorities were actively seeking to arrest Mr.Gh()lsn when aH ofthis occurred.

11.

Accordingly,to the extent thc Rcquests lor Arrcst Warrant anege that thc Taylors

ATTACHMENT K

Case 4:20-cv-11272-IT Document 57-6 Filed 11/04/20 Page 5 of 5

violated Article 103, the facts which those Requests point to as the basis for that allegation
constitute a completely unprecedented application of Article 103 that runs contrary to the manner
in which that provision historically has been applied and interpreted.

I declare under penalty of perjury under the laws of the United States of America that the
foregoing is true and correct to the best of my knowledge and belief.

Executed

on July , L, ,2020
William B. Cieary

4

ATTACHMENT K

